                              SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-13-10A                                  Office of Inspections                                 February 2013




                        Inspection of
                Embassy Manila, the Philippines




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                              SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                       ii
                          SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


                                Table of Contents

Key Judgments                                                           1
Context                                                                 2
Executive Direction                                                     3
Policy and Program Implementation                                       5
  Political Section                                                     5
  Economic Section                                                      7
  Foreign Assistance Coordination                                       8
  Public Diplomacy                                                      9
  Consular Section                                                     13
  Innovative Practice: Dynamic Training and Team Building Activities   20
  U.S. Consular Agency in Cebu                                         20
Resource Management                                                    23
  Management Overview                                                  25
  Human Resources                                                      29
  Equal Employment Opportunity and Federal Women’s Program             30
  General Services                                                     31
  Facilities Maintenance                                               34
  Global Publishing Solutions Manila                                   35
  Information Management                                               37
  Innovative Practice: Broad Range Communication                       39
  Quality of Life                                                      40
  Management Controls                                                  44
List of Recommendations                                                47
List of Informal Recommendations                                       51
Principal Officials                                                    54
Abbreviations                                                          55




                                     iii
                        SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   The Ambassador provides strong leadership. His “One Mission, One Team” approach has
       contributed to excellent interagency collaboration in this large embassy.

   •   Defense cooperation has assumed new importance with the U.S. Government’s emphasis
       on strengthening engagement in Asia. The mission’s foreign assistance programs have
       been recalibrated appropriately to increase Philippine defense capabilities and economic
       development.

   •   The consular section provides excellent service to American citizens and visa applicants,
       but the inspection team found shortcomings in consular management controls, fraud
       prevention measures, and adherence to the worldwide referral policy.

   •   Public diplomacy outreach benefits from an active social media presence and
       contributions from embassy sections and agencies. However, weak leadership has hurt
       (b) (5)     inhibited development of an overarching strategy to guide and shape the
       embassy’s public message.

   •   Commercial, agriculture, and economic offices work effectively and collegially but need
       to develop a strategy to meet National Export Initiative goals.

   •   The embassy is midway through a series of major construction projects that total more
       than $300 million. The future of the 23-acre Seafront compound requires a
       comprehensive examination to make better use of this property.

   •   The management section functions effectively, a positive achievement in a difficult
       operating environment. The mission can reduce costs by $1.2 million annually by
       eliminating two unneeded positions and reducing costs in other areas.

   •   Global Publishing Solutions (GPS) Manila continues to lose money and its U.S.
       Government customer base. Losses total $3.9 million from FYs 2007 to 2012. As
       configured, GPS Manila is not financially stable.

   •   The embassy needs to improve office facilities at the U.S. consular agency in Cebu and to
       provide better support and oversight to the agency.



The inspection took place in Washington, DC, between September 4 and 21, 2012, and from
October 15 to November 13, 2012, in Manila, the Philippines. (b)(2)(b)(6)


                                            conducted the inspection.


                                       1
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Context
        The Philippines comprises an archipelago of more than 7,100 islands forming the eastern
boundary of the South China Sea. The U.S.-Philippines relationship is deep and complex,
reflecting more than a century of shared history and common values, including nearly 50 years of
American colonial rule. The population of 100 million includes more than a dozen
ethnolinguistic groups. About 6 percent of Filipinos are Muslims and are concentrated in the
southern island of Mindanao, the site of long-running insurgencies.

       The Philippines is particularly subject to natural disasters. Typhoons and tropical storms
hit some part of the country every year, causing widespread damage and loss of life. Manila
suffered major flooding in both 2011 and 2012. The country is also vulnerable to earthquakes,
volcanic eruptions, and tsunamis. Approximately 350,000 American citizens reside in the
Philippines, and Manila is home to the only U.S. Department of Veterans Affairs (VA) hospital
outside the United States.

         U.S. policy goals include enhancing defense cooperation; supporting broad-based,
inclusive growth and economic prosperity; promoting counterterrorism coordination; and
providing consular services to American citizens and the Philippine public. The United States
and the Philippines signed a $434 million Millennium Challenge Corporation compact in 2010 to
facilitate economic and structural reforms. The U.S. Agency for International Development
(USAID) administers $108 million in foreign assistance. Bilateral trade with the Philippines fast-
growing economy was $17 billion in FY 2012.

        The 1951 Mutual Defense Treaty remains a pillar of the relationship, especially in the
context of expanded U.S. engagement in the Asia-Pacific. U.S. defense cooperation reflects joint
interests in securing the western Pacific and combating the country’s designated foreign terrorist
organizations, chiefly the Abu Sayyaf Group and the Jemaah Islamiyah in Mindanao and the
communist-led New People’s Army. The United States seeks to maintain strong defense ties
through security cooperation, frequent ship visits, and direct support from the U.S. Joint Special
Forces Operations Task Force-Philippines (JSOTF-P). Almost 17,000 Filipino nationals received
U.S.-funded training in the past year.

        Embassy Manila has an authorized staffing level of 330 U.S. direct-hire and 1,061 locally
employed (LE) staff members. In addition to the Department of State (Department), the embassy
hosts representatives from the Departments of Agriculture, Defense, Justice, Homeland Security,
Veterans Affairs, Health and Human Services, and other Federal agencies. The embassy expects
to complete the second phase of a $164 million capital construction project in 2013 and will
embark on a major rehabilitation of the chancery in FY 2014. The mission’s operating and
foreign assistance budgets were slightly more than $358 million in FY 2012 and constitute the
largest traditional foreign assistance budget in the East Asia and Pacific region.




                                        2
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Executive Direction
        Embassy Manila is well led by an experienced, two-time Ambassador in his third year in
country and a deputy chief of mission, who has been at post less than 3 months. The Ambassador
has served in senior positions as the Department’s executive secretary, Director General of the
Foreign Service, and a member of the National Security Council staff. The deputy chief of
mission brings to the front office several years of executive direction from previous assignments,
including as principal officer in a large consulate general and deputy chief of mission in a
medium-sized embassy. The deputy chief of mission’s transition has proceeded smoothly, and
section heads welcome his fresh ideas and structured analytical approach.

        Embassy Manila is a large, complex mission composed of 16 agencies, situated
separately in 6 locations across the city. In the face of this challenge, the Ambassador has
provided excellent leadership, with interagency and intersection collaboration and cooperation
evident throughout the mission. His motto, “One Mission, One Team,” is working. Regular
interagency meetings occur along functional and in-country geographic lines to bring together
the right agencies and sections to enhance cooperation. Section or agency heads generally lead
these meetings, with the deputy chief of mission in attendance.

        The Ambassador conducts weekly country team meetings, subgroup country team
meetings, and ad hoc meetings to stay informed and provide direction. Communication is
effective. His counselors and agency heads commend him for his inclusive leadership style
without micromanagement, which empowers them while holding them accountable. The deputy
chief of mission has begun a monthly schedule to visit each section and participate in section
staff meetings. Drawing on his economic background, he has established a new working group to
focus on commercial issues and to strengthen advocacy.

        As America’s only former colony, the Philippines can be subject to unique sensitivities
and concerns, from defense cooperation to visas. The Ambassador has established a strong
reputation in country and within the mission for his extensive network of Filipino contacts. He
demonstrates an impressive grasp of local culture and the interplay of various centers of
influence. He works continuously to broaden and deepen his relations and to influence
decisionmakers. This outreach has enabled him to shape and guide U.S. initiatives and to offer
sound counsel to Department principals.

       Following a persistent, Ambassador-led effort for selection, the President designated the
Philippines under America’s four-nation Partnership for Growth initiative. The initiative, the
most far-reaching change to U.S. assistance to the Philippines in decades, was signed by the
Secretary in Manila in November 2011 and recalibrates the thrust and priorities of American
economic development engagement with the Philippine Government. The Ambassador, the
USAID mission director, and the Millennium Challenge Corporation country director have
collaborated to refine the initiative as it enters year two of implementation. The Ambassador and
his multiagency team have managed U.S. assistance in defense, law enforcement, and
counterterrorism to complement the Partnership for Growth initiative.



                                        3
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

         Challenging political and security developments in the immediate region over the past
year have demanded that the United States and the Philippines reexamine the direction and depth
of bilateral defense cooperation. The Ambassador has reshaped this engagement, drawing on his
country team to provide Washington with policy suggestions, timely analysis, and visit support.
He has participated in key bilateral discussions in Washington between senior American and
Filipino officials to strengthen the direction, nature, and pace of American defense cooperation
activities while also giving due attention to equally important economic reform, capacity
building, and cultural engagement activities.

        In March 2011, the Ambassador launched an innovative public diplomacy initiative to
highlight the breadth of U.S. cooperation and engagement in the Philippines. Entitled “America
in 3D: A Road Show in Diplomacy, Development, and Defense,” the initiative features key
embassy sections and agencies and their activities in the Philippines, from the Peace Corps, to
defense cooperation, to commercial opportunities, to information about visas. The road show has
visited five cities since its inception; two more cities are scheduled in 2013. Although the impact
of the initiative is difficult to measure, each 2- to 3-day event has attracted hundreds of
thousands of visitors in major shopping malls and generated national publicity in both print and
social media.

Morale

        Overall morale is good, although pockets of flagging morale were evident from American
personal questionnaires and LE staff questionnaires. The Ambassador attaches high priority to
promoting good morale and devotes time and energy to this objective. Both American and LE
staff members commend him for this commitment. When the OIG team brought a morale issue
to his attention during the inspection, he and the deputy chief of mission took prompt corrective
action.

Entry-Level Professionals

       The deputy chief of mission has assumed responsibility for energizing the professional
development program for entry-level professionals. Personal interviews with entry-level
professionals revealed that the past program to provide advice and experience opportunities was
no longer serving their collective interests adequately. These professionals indicated that the
deputy chief of mission has already instituted welcome and helpful changes to publicizing and
assigning entry-level professional opportunities—action officer duties, representational event
attendance, and note taking. Newly arrived entry-level professionals on second tours compare the
program favorably to those they have experienced in similar-sized embassies elsewhere.




                                         4
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Political Section

        The political section is organized, efficient, and well led. The result is a section that
advances U.S. interests across a wide spectrum of issues. Shortly after arriving 2 years ago, the
political counselor reorganized this large section into three units, each focused on a priority area
of U.S. interest: internal/Mindanao, political-military/external, and rule of law/human rights. A
mid-level officer leads each unit, which contains at least one other officer and one or more LE
staff members. The three units are mutually supporting and readily pitch in to assist one another
with workload surges. Work requirements statements for section employees are up to date and
provide each officer with clearly defined areas of responsibility.

Reporting and Analysis

         Political reporting has been voluminous and timely, particularly during the China-
Philippines standoff over Scarborough Shoal, an uninhabited atoll in the South China Sea that
both countries claim. More than a third of the section’s 79 substantive reporting cables in the
first half of 2012 were related to the confrontation. Washington consumers cited the
completeness and breadth of sourcing the embassy was able to draw on in its reporting. Domestic
politics, including the peace process in Mindanao, was covered extensively, as was Philippine
foreign policy. In both cases, a number of analytical reports were particularly valuable to
Washington analysts. Other issues received less intense coverage, including the constellation of
issues surrounding human rights.

         The section has a well-considered and extensive reporting plan that guides reporting on
the full spectrum of issues of importance to the United States. Travel and representation funding
is robust. The travel budget has allowed officers to participate in U.S.-hosted discussions on the
future of the defense relationship and military presence, something that has been very important
to the progress of those talks. American and LE staff members have access to representation
funds and use them.

Trafficking in Persons

        The Philippines is a significant source country for trafficking victims. The Ambassador’s
commitment to antitrafficking and the embassy’s close work with the Philippine Inter-Agency
Committee Against Trafficking have produced new legislation and prosecutorial action against
trafficking groups. The embassy’s strong efforts contributed to the Philippines reclassification in
2012 from Tier Two Watch List to Tier Two.

        The Department and USAID have invested significant resources in antitrafficking
programs—more than $10 million since 2004. During the inspection, allegations became public
that a major nongovernmental organization recipient of antitrafficking grants from USAID and
the Department’s Office to Monitor and Combat Trafficking in Persons (J/TIP), as well as from
non-U.S. donors, was engaged in fraud. At the time of the inspection, this matter was under
investigation by the Philippine National Bureau of Investigation.
                                         5
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

        Given the size of J/TIP grants, there is need for better oversight. Department funding for
antitrafficking programs totals $5.25 million since FY 2004, from the Economic Support Funds
account (through USAID) and International Narcotics Control and Law Enforcement account.
Three ongoing grants, totaling $1.7 million in FYs 2010 and 2011, are all J/TIP programs. Of
that, $1.1 million was provided to the International Justice Mission for programs in Manila and
the Pampanga Province location of the former Clark Air Base. The third was a $600,000 grant to
another grantee implicated in fraud.

        J/TIP did not institute procedures applicable to high-risk grantees that might have
detected fraud. For example, Grants Policy Directive 42 requires funding bureaus to establish a
monitoring plan that includes, as appropriate, financial status and progress reports, monitoring by
telephone or email, site visits, and an independent audit. In addition, grantees that receive
$500,000 a year in Federal funds must have either a single or a programmatic audit conducted by
an independent auditor for that year. According to embassy staff that the inspectors interviewed,
J/TIP had not sent staff to conduct regular oversight visits in at least several years nor requested
designation of an embassy grants officer’s representative to oversee grantee activities. J/TIP also
did not require an audit when a grantee received more than $500,000 in government funds. A
2010 cable from J/TIP did request that the embassy monitor this grant; however, the embassy did
not respond to the request and did not conduct an oversight visit. In the absence of a monitoring
plan, the risk of fraud or mismanagement of resources exists.

Recommendation 1: The Office to Monitor and Combat Trafficking in Persons, in
coordination with Embassy Manila, should develop a monitoring plan for high-risk grantees in
the Philippines to improve monitoring and evaluation of its foreign assistance programs. (Action:
J/TIP, in coordination with Embassy Manila)

Grants Management

        An officer in the political section is designated as a grants officer’s representative for a
grant from the Bureau of Democracy, Human Rights, and Labor to a Philippine
nongovernmental organization and for a grant from the Bureau of International Narcotics and
Law Enforcement Affairs to the Asia Foundation to support prosecution of cases of extrajudicial
killings. The officer is qualified for these duties, having received grants officer training for a
previous assignment in a narcotics affairs section.

Leahy Vetting

        Embassy Manila’s Leahy vetting process is a model. An American citizen LE staff
member, whose expertise has been recognized by Washington, manages vetting. Manila vetted
17,000 individuals and units in FY 2012, with the largest number coming for the International
Criminal Investigative Training Program, followed by Department of Defense (DOD) training
programs. The Leahy coordinator trains personnel from all agencies, who input data directly into
the Bureau of Democracy, Human Rights, and Labor’s vetting system, thereby freeing the Leahy
coordinator’s time for deeper investigative work. Because of common names in the Philippines
and the well-practiced art of poison pen allegations, the embassy believes that a number of Leahy
deferrals or rejections were based on invalid evidence. The embassy is reviewing the details to
present these cases to Washington for further assessment.
                                                 6
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

         DOD attorneys have advised the embassy that because the JSOTF-P Title 10-funded
activities in Mindanao are not subject to Leahy vetting, the task force has never submitted vetting
requests, either for individuals or units. It is clear that civilians benefitting from humanitarian
activities do not require Leahy vetting, but the applicability of Leahy requirements to units with
which JSOTF-P personnel work is unclear. The embassy is seeking clarification from the Bureau
of Democracy, Human Rights, and Labor.

Biographic Reporting

        Biographic reporting is weak and unstructured. The political and economic sections have
separate electronic biographic files and have not uploaded biographic reporting to Diplopedia in
the past 5 years. With the expected departure of the Ambassador in 2013, capturing his insights
in a systematic manner would be particularly valuable.

       Informal Recommendation 1: Embassy Manila should designate a biographic
       reporting officer, outline a reporting plan, and arrange with the information management
       office to establish an embassy shared drive for biographic reporting.

Economic Section

        The economic section is well staffed; however, turnover in 2012 of all but one officer
has undercut continuity and institutional memory. A strong contingent of professional LE staff
has helped mitigate the impact of officer reassignments.

        The section held a half-day off-site with both American and LE staff members and
devised robust reporting and action plans that have energized staff and established a strong sense
of teamwork. Work requirements are up to date and delineate clear responsibilities, but
inspectors counseled that redistributing some duties would improve section efficiency. The
relocation of LE staff members from the chancery to a newly completed annex has increased
their physical separation from their American colleagues. The deputy economic counselor seeks
to improve cohesion by visiting the LE staff workspace twice daily.

Reporting and Analysis

        Economic reporting is of high quality. The volume is modest but commensurate with
section size. Although there was no reporting plan previously, the new economic counselor and
his team produced an ambitious plan for 2012–13. The plan is well focused and reviewed
regularly to keep projects on track and make necessary adjustments. The section produces an
excellent weekly digest of Philippine economic developments. Inspectors counseled the section
on ways to improve reporting to ensure that it is targeted to Washington user needs.

Commercial Advocacy

        The Foreign Commercial Service and Foreign Agricultural Service share commercial
space in the main business district but are scheduled to move to the chancery compound in 2013.
The deputy chief of mission has established and chairs a commercial task force that includes all

                                        7
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

relevant agencies. He has taken initial steps to increase mission representation and improve
coordination by including both American and LE staff members from each agency.

        The embassy has submitted regular success story updates in accordance with the
President’s National Export Initiative. Although this is a promising start, the embassy lacks a
strategic interagency focus led by commercial task force member agencies. The Mission
Resource Request makes only a passing reference to support for commercial activities through
the trade and investment framework agreement. Without a comprehensive approach that makes
commercial advocacy and trade promotion whole-of-mission priorities, the embassy is not on
track to meet the President’s National Export Initiative targets.

Recommendation 2: Embassy Manila should develop a comprehensive interagency strategy
to expand U.S. exports to the Philippines that is consistent with the National Export Initiative.
(Action: Embassy Manila)

Export and Border Security Controls

       The economic section assists in managing Export Controls and Related Border Security
programs in the Philippines ($625,000 in FY 2011, $3.2 million in FYs 2005–2011) and
Biosecurity Engagement Program assistance ($790,000 in FY 2011, $5.5 million in FYs 2006–
2011). The Bureau of International Security and Nonproliferation in Washington funds and
manages both programs. The Export Controls and Related Border Security program has a
regional coordinator based in Kuala Lumpur who has responsibility for programs in the
Philippines, Singapore, and Malaysia and who visits the Philippines each month. The Biosecurity
Engagement Program has no regional oversight. The deputy economic counselor provides day-
to-day oversight of the LE staff member who manages these programs.

Foreign Assistance Coordination

         The Philippines is a major recipient of U.S. foreign assistance. USAID’s annual
assistance budget was $108 million in FY 2012, the Millennium Challenge Corporation has
signed a compact in 2011 with the Philippines worth $434 million over 5 years, and Foreign
Military Financing and International Military Education Training funding was $33 million in FY
2012 and is to increase significantly in FY 2014. The Philippines is one of four countries in the
Partnership for Growth initiative, which carries no additional foreign assistance funding but is a
symbol of strong U.S. commitment and a vehicle for bringing greater coherence to development
assistance. Both USAID’s joint action plan and the Millennium Challenge Corporation compact
aim at ameliorating major impediments to sustained growth in the Philippines: regulatory
reform, rule of law, anticorruption, and fiscal capacity. This is a significant shift in emphasis.
USAID’s program has turned from 60 percent focused on Mindanao to less than 10 percent, with
economic growth and education growing in its place. The Philippines also receives modest but
still significant U.S. assistance from the Departments of Defense, State, Agriculture, and
Treasury.

         Foreign assistance coordination within the mission appears to be excellent, despite few
institutional mechanisms. The Partnership for Growth Steering Committee, cochaired by the
USAID director and the Millennium Challenge Corporation director, serves as the embassy’s
                                                 8
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

strategic-level coordinating mechanism. Day-to-day coordination is handled in a post-country
team working group and the Mindanao working group. USAID heads an informal monthly
meeting, usually a brown-bag lunch, among the mission offices working on economic policy.

        The embassy coordinates security assistance programs well. Military representatives
work closely with the Department sections and have aligned their programs with mission
resource review goals as U.S. assistance funds shift from Mindanao to broader reform of the
Philippine Armed Forces. In addition to programs funded through the foreign assistance budget,
the Philippines received $28 million in Defense-funded security assistance in FY 2011.
Antiterrorism assistance worth $8.9 million in FY 2012 is managed by on-site contractors.
International Narcotics Control and Law Enforcement funds provided $4.2 million in assistance
to the Philippines in FY 2012, most for police modernization through the International Criminal
Investigatory Training Assistance Program.

Public Diplomacy

        The public affairs section (PAS) is actively engaged with Filipino audiences. PAS work
is integrated with that of the rest of the mission, although the degree of collaboration varies by
section. Joint work with the consular section is strong, especially on social media platforms. The
embassy makes good use of its personnel, including entry-level officers, as public speakers on
subjects in support of its goals. However, the section is hampered by weak leadership, and the
office lacks strategic focus. (b) (5)
                          The OIG team found problems in supervisory oversight, planning,
(b) (5) and communication. Each of those issues is addressed below.


        PAS staff members work at two separate locations, which complicates management and
communication. The information and press unit staff members work in the chancery. The
cultural unit, the Information Resource Center, and the regional English language office are
located at the Seafront compound approximately 20 minutes away by car. Bringing the section
together in an annex, currently under construction and slated to be finished in 2013, will
eliminate this problem.

Section Management
       (b) (5)        Employees expressed concern about inadequate planning leading to
unnecessary workload stress; unclear decisionmaking and tasking procedures; insufficient
attention by managers to the details of public diplomacy programs, including budget matters; and
lack of guidance and direction.

        All-hands staff meetings do not accomplish the goal of sharing information while
efficiently developing public diplomacy programs. The OIG team discussed with the public
affairs officer ways to change and restructure meetings to make them more productive.

        A number of LE staff position descriptions are due for review and revision; some have
not been updated since 2004. Accurate position descriptions are vital to employee accountability
and efficiency and to the equitable distribution of work.

                                        9
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 2: Embassy Manila should revise local employee position
       descriptions in the public affairs section as warranted.

Need for Strategic Planning

        The mission’s size and complexity present another challenge. Many embassy sections,
along with the other Federal agencies represented in Manila, require public affairs support.
Although PAS is adequately staffed, the mission’s demand for support requires an overarching
strategic approach to help managers prioritize resources. At the time of the inspection, such an
approach was lacking. The section is busy, and the Filipino media cover embassy activities, but
no shaping narrative guides the mission’s engagement. Without clearly defined priorities, PAS
staff experience workload stress in an attempt to provide coverage of every event and activity
regardless of importance.

         The U.S. military presence has historically loomed large in the bilateral relationship.
Navy ship visits are frequent, along with other activities. However, there is no U.S. military
public affairs officer assigned to Embassy Manila. The PAS press unit spends more than half of
its work hours supporting events and activities associated with the U.S. military. This significant
expenditure of time raises two issues. The first is whether the embassy’s public affairs presence
overemphasizes the military relationship when a primary embassy goal involves strengthening
democratic institutions. The second issue is an opportunity cost. A range of public affairs
activities, from basic contact work with journalists to beefing up support for the embassy’s
economic priorities, suffers because of the time the PAS press unit spends on work related to
military matters.

        With respect to media support for the embassy’s foreign assistance programs, at a
working level, coordination between PAS and USAID is reasonably good. Press releases are
distributed, speeches are given, and ribbons are cut. However, no strategic plan exists to
highlight USAID’s contributions and place them in the context of U.S. goals. USAID’s emerging
focus on education represents a promising area for improved collaboration. In addition, oversight
of the section’s budget is inconsistent. Decisions on how to commit program resources appear to
be ad hoc rather than systematic. Developing a program plan by fiscal quarter, and committing
resources to match that plan, will contribute to a balanced public affairs presence and address
workload considerations.

Recommendation 3: Embassy Manila should implement a missionwide public affairs strategy
that clarifies the mission’s central messages and priorities and allocates resources accordingly.
(Action: Embassy Manila)

        The Ambassador tasked PAS with developing a public diplomacy road show that the
embassy calls “America in 3D,” showcasing U.S. “diplomacy, development, and defense.” As
stated in the Executive Direction section of this report, the road show represents a major,
missionwide effort to entertain and inform significant numbers of Filipinos. Audiences at the
road shows, which run over several days, have reached the hundreds of thousands for each
iteration. America in 3D is ambitious and innovative. At the same time, putting together an
operation of its magnitude requires a serious commitment of resources. At the time of the

                                       10
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

inspection, PAS was attempting to balance the resource draw with the obvious benefits of
America in 3D.

Press and Information

        The press unit adequately monitors the media, including electronic media, and produces
useful daily reporting for readers in the mission and in Washington. The unit secures coverage of
embassy activities in the local media, although, as noted above, engagement is diffuse. PAS
coordinates journalists’ involvement with sections, agencies, and individuals. Mission personnel
are aware of and respect the mission’s media policy. Much of the time, the information officer,
as spokesperson, speaks on the record through text messages, in keeping with Filipino
journalists’ preferences. A visual diplomacy team of audiovisual specialists provides impressive
multimedia support for embassy programs and activities.

         Coordination with public affairs elements of the U.S. military, including the public affairs
officer assigned to JSOTF-P staff in Mindanao, is sporadic. Given the volume of visits and
activities, the potential exists for problems of public perception to arise absent more regular
coordination.

       Informal Recommendation 3: Embassy Manila should regularize the public affairs
       section’s contact with U.S. military public affairs elements, including the public affairs
       officer assigned to the Joint Special Operations Task Force-Philippines.

Social Media

        PAS coordinates a missionwide social media effort that successfully takes advantage of
Filipinos’ heavy use of Facebook, Twitter, and other sites. The embassy hosts the fourth-largest
Twitter account of any U.S. overseas mission and has the tenth-largest number of Facebook
followers as well. A quarterly meeting brings together sections and agencies to coordinate
tactically and to consider broader questions of how best to use social media. A full-time
specialist provides technical advice and tracks the mission’s overall social media presence.

       The embassy maintains two Internet platforms to communicate with the population of
Mindanao: a virtual presence post, which is essentially a Web site, and a blog directed to
Mindanao readers. Although the effort to provide information tailored to an important region
makes sense, having two vehicles may be duplicative.

       Informal Recommendation 4: Embassy Manila should analyze readership and media
       habits of the target audience in Mindanao and decide whether to continue both the virtual
       presence post and the blog.

Cultural Affairs and Educational Exchanges

       The OIG team found that inadequate oversight and supervision of the cultural unit staff
and the Information Resource Center staff impede efficiency, create confusion(b) (5)
Many programs, including the exchanges, work well. However, the OIG team found instances of

                                        11
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

unclear lines of supervisory authority, inadequate planning, lack of budget oversight, and tardy
decisionmaking.

Recommendation 4: Embassy Manila should develop a plan to improve oversight and
direction of the cultural unit and the Information Resource Center. (Action: Embassy Manila)

       The International Visitor Leadership Program sends approximately 30 Filipinos to the
United States annually. Embassy involvement in the selection of nominees is appropriate, and
the quality of the nominees is acceptable. The embassy is increasing its use of programs that
include participants from other countries in the region, finding that the focus on regional
concerns buttresses embassy goals that tie into an increasing U.S. focus on Southeast Asia.

        Established in 1948, the Philippine-American Educational Foundation administers the
world’s oldest continuously operating Fulbright program. The public affairs officer cochairs the
board, and the cultural affairs officer serves as treasurer. The program emphasizes student
exchanges, although U.S. scholars and specialists also participate. Relations with the embassy
are cordial and productive.

       Connecting with younger audiences, particularly from economically disadvantaged
groups, is a key mission goal. PAS provides effective support of this goal through the Access
program. Funded by the Bureau of Educational and Cultural Affairs, Access establishes
partnerships with organizations that teach English to young people who would not otherwise
have an opportunity to learn the language while simultaneously building awareness of and
goodwill toward the United States. The organizations with which PAS partners in the Philippines
are appropriately selected and responsive to embassy priorities.

      In addition to the spectrum of Department-funded educational and cultural exchanges,
PAS develops cultural programs and activities using local resources. Although these activities
may be individually effective, they appear not to be the product of a focused plan of engagement.

Information Resource Center

         The Information Resource Center is located on the Seafront compound. Public access is
limited because of security procedures. To compensate, Center staff direct their efforts to
establishing networks of partner organizations that cohost speakers, conduct workshops, and
conduct electronic outreach to Filipino audiences. The staff also maintains relations with the
directors of 14 American Corners, which are venues hosted by local institutions that house
reference materials and electronic databases; host American speakers; and offer platforms for
activities such as student advising. The Corners are notably active, and relations with the
Information Resource Center staff are productive. Center staff also supports 33 similar but more
modest operations called American Shelves. Trip visit reports by the information resource officer
based in Jakarta ranked the Center as an exemplary operation.

        There are three professional-level staff positions in the Information Resource Center. Of
the three, one incumbent had recently left, a second had tendered her resignation, and the third
had received another job offer. While the embassy recruits qualified replacements, increased

                                       12
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

oversight by PAS management will be key to managing the workload and safeguarding
relationships with American Corners directors.

         Informal Recommendation 5: Embassy Manila should implement a plan for the
         Information Resource Center to control workflow and sustain relationships with Filipino
         contacts and organizations during the transition to full staffing.

Regional English Language Office

        A regional English language officer is based in PAS and has responsibilities in Brunei,
Samoa, Malaysia, and New Guinea, in addition to the Philippines. The officer reports to the
public affairs officer. In FY 2012, the officer did not develop English language projects in any of
those countries. As a result, at the end of the fiscal year PAS officers, in consultation with the
Bureau of Educational and Cultural Affairs, executed grants to obligate the office’s budget,
which totaled about $200,000. A review of the grants they awarded found no anomalies, but the
combining of the projects makes followup and oversight unnecessarily difficult.

Recommendation 5: Embassy Manila should require the regional English language officer to
develop and execute a quarterly program plan consonant with the officer’s regional
responsibilities. (Action: Embassy Manila)

Grants

        PAS processed $623,000 in grants in FY 2012, including two non-public diplomacy
grants and grants originating in the Department for programs such as the Study of the U.S.
Institutes and the Southeast Asian Youth Leadership. Grants from the PAS Manila budget totaled
$256,000. PAS maintains the grants files properly, although the section does not complete the
required DS-4012 Federal Assistance File forms, an essential component of grants management.

         Informal Recommendation 6: Embassy Manila should implement procedures
         requiring the public affairs section to complete DS-4012 grants forms.

        Grants agreements did not typically specify how the U.S. Government would receive
public credit or acknowledgement where desirable. This lack of specificity does not necessarily
mean that credit was not given, only that the agreement did not address the subject.

         Informal Recommendation 7: Embassy Manila should stipulate in its grant
         agreements how the U.S. Government will receive public credit, as appropriate.

Consular Section

       The consular section is one of the largest in the world and provides good service to
American citizens and visa applicants. However, the inspectors identified shortcomings in
adherence to the worldwide referral policy, fraud prevention measures, and consular
management controls. In February 2011, the section moved into a well-designed new annex that
incorporates state-of-the-art design features. The consul general enjoys excellent relationships
with the front office and other agencies in the mission. Consular officers serve on many embassy
                                                 13
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

committees and play active roles in the mission community. They work closely with U.S.
Citizenship and Immigration Services, the Social Security Administration, U.S. Immigration and
Customs Enforcement, and the VA. The Social Security Administration operation is in the
process of transitioning its employees to a regional Federal benefits unit within the consular
section. The transition should be finalized before the end of FY 2013.

         The consul general supports professional development opportunities for vice consuls.
Occasionally requests for consular officer support, such as serving as a control officer for
visiting dignitaries, affect core consular responsibilities. Consular leadership needs to monitor
overlapping requests to coordinate consular staffing with scheduled consular appointments and
critical embassy needs. An internal consular rotation for first- and second-tour officers exposes
them to at least two consular subunits during a 2-year tour. Eligible family member positions are
an integral part of the consular team. Skilled LE staff members support consular officers and
provide excellent customer service.

       The consular section, working closely with PAS, has developed many innovative public
engagement programs, ranging from American citizens outreach events, a consular blog, and a
fraud prevention campaign in Tagalog, to integration of social media in consular correspondence.

Consular Section Deputy

        The consular section does not have a formally designated deputy section chief. The
consul general oversees a staff of 41 American officers, 122 LE staff members, and 22 eligible
family members. When the Social Security Administration operation merger is complete, 30
additional positions will be added to the section. Four mid-level unit managers rotated through a
deputy section chief role in the past year, leaving the consul general without a real partner to help
manage the large operation. The immigrant visa chief, the only FS-01 position, has assumed the
role of de facto deputy section chief. Several unit chiefs are precluded from serving in this role
because of nepotism conflicts of interests. The demands on the consul general in managing such
a diverse operation are enormous and require the assistance of a designated deputy.

Recommendation 6: Embassy Manila, in coordination with the Bureau of Consular Affairs,
should designate an officer as deputy to the consul general. (Action: Embassy Manila, in
coordination with CA)

Consular Language Designated Positions

        Five of 31 entry-level consular officers occupy language designated positions in
Tagalog. Those with language capability note they use Tagalog frequently because many visa
applicants do not speak sufficient English for interviews. Given the high fraud environment and
the English capability of the general population, more consular officers need language training.
According to Foreign Affairs Handbook 13 FAH-1 H-241.5, a language designated position is a
position that the Department has officially designated as requiring a specified level of language
competence on the part of the incumbent.



                                        14
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 7: Embassy Manila, in coordination with the Bureau of Human Resources,
should propose an increase in the number of language designated consular positions for inclusion
in the next language designation review. (Action: Embassy Manila, in coordination with DGHR)

Appointments

        The section schedules routine services by appointment several weeks in advance. The
Bureau of Consular Affairs’ Global Support Services system has been in place for more than a
year to provide call center and Internet information, fee collection, appointment, and delivery
services for visa applicants. The American citizens services unit operates an online appointment
system for passports, reports of birth, and notary services. The consular section sees an average
of 1,600 clients daily. The embassy in located on in-fill land directly abutting Manila Harbor and
is vulnerable to flooding during tropical storms, as happened twice in 2012. The section does not
have sufficient advance time to reschedule appointments when the potential for flooding is
significant, regardless of whether the embassy will be closed.

Recommendation 8: Embassy Manila should implement a plan to reschedule appointments
for consular clientele when there is significant threat of flooding. (Action: Embassy Manila)

Consular Systems

        The information management (IM) office has had difficulty maintaining customer
support because of an increased consular workload. The Bureau of Consular Affairs’ Office of
Consular Systems and Technology used to support installation and training but now generally
relies on embassy information managers to install equipment and patches and to perform
equipment refreshes. From 2007 to 2011 the number of consular peripheral devices grew by 73
percent, and the section now accounts for 43 percent of IM service requests. Consular funding
supports one systems support LE staff position, but one position is not sufficient to meet routine
needs, much less to handle consular equipment refresh work or mandated system patches and
upgrades. In June, 270 pieces of consular computer equipment arrived in Manila with no prior
notification to the IM office. Storage space is insufficient. Additional printers and surge
protectors are needed, but sources of funding for additional equipment are not clearly defined.
Inadequate communication between the Bureau of Consular Affairs and the embassy’s IM office
exacerbates the problems.

Recommendation 9: Embassy Manila should prepare a workload analysis to assess the need
for additional information management office staffing and approach the International
Cooperative Administrative Support Services council with a proposal to improve support to the
consular section. (Action: Embassy Manila)

American Citizens Services

        A mid-level unit chief and deputy manage a challenging American citizens services
workload. Four first- and second-tour officers work on 8-month rotations, and one officer joins
for a 1-month rotation. Within the unit, officers rotate on a weekly basis among passport, report
of birth, and special consular services duties. Although this internal rotation program provides

                                       15
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

cross-training and broad exposure to the breadth of American citizens services work, it transfers
responsibility for continuity in case management and operations to the LE staff.

       Informal Recommendation 8: Embassy Manila should revise the rotation schedule in
       the American citizens services unit for appropriate case management, continuity, and
       workload distribution.

Special Consular Services

        Two officers, on a weekly rotation, and 10 LE staff members oversee cases involving
arrests and imprisonment, illness and death, repatriations, child custody disputes, parental
abductions, kidnappings, victims of crime, and crisis response. Five of the 10 LE staff members
resigned or retired last year, which the remaining LE staff members attribute to stress. The LE
staff members in this subunit have performed superbly during this transition period. The LE staff
supervisor has made providing appropriate training for new staff and team building top priorities.
The special consular services LE staff members provide backup assistance on a rotational basis
for emergency after-hours duty calls. The OIG team counseled the unit manager on measures
that could reduce workplace stress.

Passport and Citizenship Services

        When fully staffed, the unit schedules 120 appointments daily: 18 for citizenship
adjudication of children of U.S. citizens, 42 for passports, and 60 for notary services. American
citizens often wait several hours on the day of the appointment to see a consular officer. The unit
is exploring ways to reduce waiting time. Passport operations run smoothly, and passports are
normally delivered in less than 2 weeks.

Consular Reports of Birth Abroad

         Embassy Manila’s system for processing applications for consular reports of birth abroad
is inefficient and inconsistent with recommended practice. According to 7 Foreign Affairs
Manual (FAM) 1445.6 d. and e., a fee should be collected before an oath is taken on an
application, and consular staff should not preview cases to determine whether issuance is likely
in order to avoid payment of the fee. Under existing embassy practice, both parents and the child
must appear in person at the initial appointment. LE staff reviews the application and
documentary evidence. If the evidence is incomplete, the family is told to make another
appointment without seeing an officer. Although the unit does not collect a fee and does not
create a record of these cases, it is providing a fee service that needs to be documented. Under
existing procedures, the applicant makes another appointment, the family appears in person
again, and LE staff again reviews the documents prior to the applicants seeing an officer. This
process creates unnecessary demand for appointments and is a poor customer service practice.
LE staff appropriately reviews cases for completeness but does not create records, collect fees, or
allow American citizens access to officers.

Recommendation 10: Embassy Manila should restructure processing of applications for
Consular Report of Birth Abroad of a Citizen of the United States to comply with regulations.
(Action: Embassy Manila)
                                              16
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Nonimmigrant Visa Unit

       The nonimmigrant visa unit operates efficiently in a high-volume work environment.
Nonimmigrant visa adjudication numbers rose by 17 percent in FY 2012, to 230,000
adjudications. LE staff members are capable and well trained. The unit enjoys a productive
working relationship with the embassy’s visa security unit, operated by the U.S. Customs and
Immigration Enforcement staff resident in Manila. The nonimmigrant visa unit has appropriate
procedures in place with respect to requirements of the Wilberforce Act.

Worldwide Referral Policy

        The consul general has repeatedly contacted the nonimmigrant visa unit to pass on
information about specific visa applicants, sometimes suggesting that the nonimmigrant visa
chief review a case or conduct a second interview. These practices violate the Department’s
worldwide referral policy specified in 9 FAM Appendix K, Exhibit I, which mandates that no
information on specific cases be provided outside formal referrals. The front office and consular
management may appropriately forward correspondence they receive on visas cases to the
nonimmigrant visa unit, but no individual may ask for special treatment of visa applicants or
advocate on their behalf outside the referral system. The nonimmigrant visa unit has a well-
managed correspondence team, which sends all responses to electronic or hard-copy
correspondence to the nonimmigrant visa unit chief or deputy for review before sending
responses to the inquirer. The reviewing officer checks the related visa case and recommends
appropriate action if warranted.

         The OIG team counseled the embassy’s senior leadership regarding the Department’s
worldwide referral policy. Inspectors suggested the embassy print cards explaining that visa
eligibility decisions are based on strict legal requirements, which embassy leaders are prohibited
from influencing. This card, which could be given to anyone inquiring about visas, also could
refer applicants to the embassy’s Web site for additional information.

Recommendation 11: Embassy Manila should not allow mission employees to use any method
other than Class A and Class B referrals to provide information on nonimmigrant visa applicants.
(Action: Embassy Manila)

Recommendation 12: Embassy Manila should send any inquiries or information received
regarding nonimmigrant visas to the nonimmigrant visa unit for an appropriate response.
(Action: Embassy Manila)

Privileged Visa Information

        In an effort to be responsive to inquiries, consular management may have provided visa
information to third parties not entitled to receive such information. Under section 222(f) of the
Immigration and Nationality Act, information related to visa applications is considered
privileged and may not be disclosed to anyone other than the visa applicant or under the specific
exceptions described in the Immigration and Nationality Act and in 9 FAM.


                                       17
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 9: Embassy Manila should hold a training session on the
       confidentiality of visa information under section 222(f) of the Immigration and
       Nationality Act to make all consular staff aware of its provisions and of the procedures
       for reporting a breach in visa confidentiality.

Immigrant Visa Unit

        The embassy consistently ranks among the top five immigrant visa posts worldwide in
workload volume. The immigrant visa unit staff is well trained, and the operation is efficient and
effective. Over the past several years, the number of referrals to the fraud prevention unit has
declined. The immigrant visa unit has begun to coordinate with the fraud prevention unit to
address more effectively marriage fraud in the immigrant visa process.

Marshall Islands Immigrant Visas

        The immigrant visa unit processes adoption-related immigrant visas for the Marshall
Islands. Under the terms of a memorandum of understanding between Embassy Manila and
Embassy Majuro, prospective adoptive parents and the orphan are interviewed, and cases
adjudicated, in Majuro. The child’s passport, along with the required immigrant visa documents
and petition, are forwarded to Manila, where the immigrant visa is processed and a visa foil is
affixed to the child’s passport. This process can take 3 to 4 weeks, during which time the
adoptive parents and child must remain in the Marshall Islands. In 2011, the embassies jointly
sent a telegram to the Department asking that Embassy Majuro be granted access to the
immigrant visa system to issue these visas, but the Department has not responded.

Recommendation 13: The Bureau of Consular Affairs should respond to the request of
Embassy Manila and Embassy Majuro regarding access to the immigrant visa system for
Embassy Majuro. (Action: CA)

Fraud Prevention Unit

        Although the embassy’s fraud prevention unit is among the largest in the world, with
eight LE staff fraud investigators, the number of field investigations dropped precipitously from
more than 200 in 2008 to only 5 in 2011. Funds are available for necessary field investigations,
which are needed to curb consular fraud. A mid-level fraud prevention manager and a rotational
entry-level officer oversee the work of 4 eligible family members and 15 LE staff members. The
unit appropriately uses the Bureau of Consular Affairs’ Enterprise Case Assessment System for
all fraud referrals and has a highly skilled team of fraud investigators. The fraud prevention
manager did not provide a clear explanation for the reduction in field investigations. During the
inspection, several fraud rings involving domestic employees and concerns about potential
marriage fraud came to the attention of the OIG team, highlighting the importance of active
antifraud work in this local environment.

Recommendation 14: Embassy Manila should analyze the reasons for reduced productivity in
the fraud unit and undertake additional field work to investigate potential fraud. (Action:
Embassy Manila)

                                       18
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Visas Viper

       The embassy holds monthly Visas Viper meetings, with attendance by all appropriate
agency representatives, and provides timely reports to the Department. In FY 2012, Embassy
                  (b) (5)
Manila forwarded          submissions to the Department.

Genetic Testing

        The processing of genetic testing is more complicated than it needs to be because of
inefficient accountability procedures. Guidance in 06 State 097431 sets forth clear instructions
for oversight of the testing and chain of custody of the testing kits. The fraud prevention
manager, who is the accountable consular officer, receives packets from laboratories in the
United States and transfers the packets to the accountable consular officers in the different
consular subunits. Because the fraud prevention unit oversees the actual testing, the fraud
prevention manager is best placed to maintain custody of the genetic test kits throughout the
process.

       Informal Recommendation 10: Embassy Manila should make the fraud prevention
       manager, who is the accountable consular officer in the fraud prevention unit, responsible
       for the entire genetic testing process.

Assistant Regional Security Officer-Investigator

       The office of the assistant regional security officer-investigator (ARSO-I) is located
adjacent to the fraud prevention unit. Two mid-level ARSO-Is, one eligible family member, and
two LE staff investigators devote time to law enforcement work related to visa fraud. They also
manage an active program returning Federal fugitives to the United States. The lines of authority
and responsibility between the fraud prevention unit and the ARSO-I office are not well defined.
Under the memorandum of understanding between the Bureau of Consular Affairs and the
Bureau of Diplomatic Security, the fraud prevention unit processes fraudulent document checks
and refers those with a criminal nexus to the ARSO-I for further investigation. Clarity on this
and other points would alleviate confusion and improve coordination between the fraud unit and
the ARSO-I office.

       Informal Recommendation 11: Embassy Manila should require the fraud program
       manager to organize a training session for consular section employees with the assistant
       regional security officers for investigations to clarify lines of responsibility and authority,
       and codify responsibilities in a post-specific standard operating procedure.

        Despite the efforts of the ARSO-I, the office has been unable to (b) (5)
                                 Several U.S. Government agencies have training programs for
foreign judicial officials, (b) (5)
                                                                     The ARSO-I is ideally
situated to suggest which offices of the Philippine judicial system would benefit most from such
training.


                                       19
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 12: Embassy Manila should propose training for judicial
       entities in the Philippines that are involved in (b) (5)

Consular Training

       Organized consular training for such a mammoth operation is essential, yet cross-training
opportunities for individual employees are limited. The consular units are located in large spaces
on two floors of an annex and function relatively independently. The size of the operation creates
unintended obstacles to building a unified team. One day per month, the consular section
suspends routine appointments and sets aside time for training activities, which are important and
should continue.

Innovative Practice: Dynamic Training and Team Building Activities

Innovative Practice: Consular Battle of the Brains

Issue: With one of the largest consular operations in the world, Embassy Manila needs well-
trained staff. The large size of each consular unit promotes independent functioning, affording
staff members little opportunity to work closely with others outside their operational unit.
Officers, LE staff, and eligible family members tend to circulate in separate subgroups. Equal
Employment Opportunity, ethics, cyber security, and consular-specific training tend to be
categorized separately, and required training is conducted independently for the most part.

Response: An organizing committee made up of officers and LE staff members from several
consular units developed a Jeopardy-like game that they called “Consular Battle of the Brains.”
Unit chiefs allocated time on the training day for the competition. Seven teams, each composed
of personnel working in all consular units and from all employment categories, from the consul
general to the contract greeters, competed. The organizing committee developed a series of
questions emphasizing different areas of training and expertise, including Equal Employment
Opportunity, No Fear Act, personally identifiable information, the Privacy Act, consular
leadership tenets, Philippine culture, facts about the mission, and consular online training.

Result: The dynamics of the Battle of the Brains promoted team building across all consular
units and staff. Large groups of individuals formed into tight interactive circles, putting their
heads together and laughing as they collaborated on answers to questions. This format broke
down barriers between people, and the teams enthusiastically enjoyed competing against one
another. The variety of questions, and changing format of the questions and answers, made the
review of material, conveyed primarily through online training, both fun and relevant.

U.S. Consular Agency in Cebu

        The U.S. consular agency in Cebu serves the American population of Visayas and
Mindanao and is a key embassy resource. The agent and his assistant attend the public on a walk-
in basis five mornings a week and thus have limited time for administrative tasks and out-of-
office duties.


                                       20
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 13: Embassy Manila should limit hours for walk-in service
       to the public at the U.S. consular agency in Cebu to 4 days a week to allow the consular
       agent and his assistant adequate time for other duties.

         An October 2000 partnership agreement between the Bureau of Consular Affairs and the
Department’s regional bureaus sets forth a matrix for funding and responsibility for consular
agency support and oversight. Under the agreement’s terms, the Bureau of Consular Affairs has
responsibility for consular agent compensation and travel, provides basic equipment, and funds
agent communications operating costs. Consular agency personnel are required to visit the
supervisory post, and the Bureau of Consular Affairs funds an annual visit from a consular
officer or senior LE staff member. The regional bureaus fund administrative costs, including LE
staff salaries, furniture, equipment, and additional in-country travel. Support to the Cebu
consular agency has been ad hoc and uncoordinated, hampering the agent’s ability to balance
official visitor support with his administrative and consular responsibilities. Moreover, the agent
has experienced difficulty receiving prompt assistance from the embassy’s consular section
because he was unable to confer with experienced consular section staff in a timely manner. The
new American citizens services chief has assumed responsibility to serve as the embassy point of
contact for the consular agency. However, the consular section has not clarified this role to the
mission community nor taken steps to facilitate the provision of timely assistance.

       Informal Recommendation 14: Embassy Manila should coordinate a comprehensive
       program of administrative support to consular agency Cebu.

        The consular agent’s compensation does not appear to be calculated appropriately for
time spent on official duties. He routinely works in the office 6 hours a day, 5 days a week, with
additional hours for mandatory prison visits, welfare and whereabouts and hospital visits, and
issues related to deceased Americans. As described in 3 FAM 8914.3, individual consular agent
pay is determined using a percentage of annual salary representing an agent’s approximate
average weekly workload, based on hours worked by a consular agent and not the hours an
agency is open to the public.

Recommendation 15: Embassy Manila, in coordination with the Bureau of Consular Affairs,
should calculate the consular agent’s workload and time spent on official duties and take
appropriate action to compensate the agent appropriately for his work hours. (Action: Embassy
Manila, in coordination with CA)

        The consular agent and assistant have not had required training. The consular assistant
serves as consular subcashier, administrative and consular assistant, and agency driver; however,
he has not completed all appropriate training for these duties. The Consular Agent Handbook
states the agent should come to the embassy once a year; it has been more than a year since the
agent visited the embassy. During the inspection, the embassy scheduled the consular assistant to
come to Manila for consultations and training. The consular agent also has not had remote access
to Department intranet resources for several years; connectivity was reestablished only during
the OIG inspection. Hence, he was not able to remain current with mandatory ethics, Equal
Employment Opportunity (EEO), cyber security, and consular training. The embassy has
scheduled the consular agent and assistant to come to the embassy during the final week of the
OIG inspection for consultations and to update the agent’s certifications. The consular section
                                                21
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

has committed to instituting a regular schedule for agency travel, training, and support. The OIG
team discussed this issue with the consul general, management counselor, and Ambassador.

       The agency is located in spacious quarters on the lower level of a major hotel; however,
the embassy has neglected agency upkeep. The interview windows are cloudy and cracked, tape
covers sharp edges of the counters at the windows, the public address system functions poorly,
microphones do not work at all, and (b) (5)                                   The working
conditions in the agency are not up to standard, and only immediate remedial action will improve
the physical plant and systems.

Recommendation 16: Embassy Manila should implement a plan to budget for and repair the
facilities, dispose of excess property, and replace nonfunctioning windows and microphones at
the U.S. consular agency in Cebu. (Action: Embassy Manila)

        Supervisory and support visits to the consular agency by mission staff have been
irregular, incomplete, and informal. The consular agent does not have up-to-date resources and
information, his administrative support has been inadequate, and there has been inadequate
followup or reporting from support visits to the agency. When the embassy’s attention was
drawn to the neglect, staff promptly began to correct the deficiencies. Additional planning for
long-term support, oversight, and reporting is required.

Recommendation 17: Embassy Manila should implement procedures to provide regular
supervisory oversight and administrative support for the consular agency in Cebu, using a
checklist of vital consular and management issues as a guide. (Action: Embassy Manila)

        The consular agent, who has been serving in this capacity since 1995 when the agency
opened, has indicated his intention to retire in 2 years. When he retires, a wealth of knowledge
will walk out the door. Careful planning, including recruiting and training a replacement agent,
will avert problems during a transition period.

       Informal Recommendation 15: Embassy Manila and the consular agent in Cebu should
       develop a transition plan for the agent’s anticipated retirement so that his knowledge and
       expertise are not lost.




                                       22
                           SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED


Resource Management

          Agency                 U.S.       U.S.     Foreign    Total   Total Funding
                                Direct-    Local-    National   Staff     FY 2012
                               Hire Staff Hire Staff  Staff
Department of State
Diplomatic and Consular
Programs                              95         11       50      156      $7,931,000
ICASS                                 12         27      316      355     $15,774,600
Public Diplomacy                       7          2       22       31      $1,883,500
Diplomatic Security                    7          4       23       34      $2,332,000
Marine Security                       10          –        –       10        $115,500
Representation                         –          –        –       -–         $70,000
Overseas Buildings
Operations                             5          –       10       15      $8,408,000
Consular Affairs – Machine
Readable Visa                         33         15       89      137      $3,586,800
Global Publishing Solutions
Manila                                 4          –       41       45      $4,000,000
Broadcasting Board of
Governors                              6          –       74       80      $7,430,800
Department of Agriculture
Foreign Agricultural Service           2          –        6        8        $383,900
Animal and Plant Health
Inspection Service                     1          –        3        4        $471,700
Department of Defense
Defense Attaché Office                15          –        3       18        $833,000
Joint U.S. Military
Assistance Group                       9          1        6       16        $655,000
U.S. Pacific Command                   6          –        1        7        $213,900
Naval Facilities Engineering
Command                                2          –        –        2         $16,000
Armed Forces Research
Institute of Medical
Sciences                               –          –        –        –        $137,900
U.S. Air Force – Air
Mobility Command                       1          –        –        1         $18,500
Special Operations
Command – Pacific                      3          –        –        3         $65,200
Joint Special Operations
Task Force – Philippines               2          –        –        2        $176,500
U.S. Navy – Fleet Industrial
Support Center – Foreign               1          1        1        3        $453,100

                                    23
                        SENSITIVE BUT UNCLASSIFIED
                        SENSITIVE BUT UNCLASSIFIED

Liaison Office
Fleet Post Office                4      –       –      4             –
Naval Criminal
Investigative Service            7      1       3     11      $678,900
Department of Justice
Drug Enforcement
Administration                   5      –       1      6       $66,000
Legal Attaché Office             5      –       –      5      $365,600
Department of Justice –
Criminal Division                1      –       1      2      $263,200
Department of Justice –
Office of Overseas
Prosecutorial Development,
Assistance, and Training         1      –       1      2      $265,900
Department of Homeland
Security
Transportation Security
Administration                   1      1       1      3      $241,000
Immigration and Customs
Enforcement                     10      –       7     17     $1,085,200
Citizenship and Immigration
Services                         2      1       6      9      $308,500
Foreign Commercial
Service                          3      –      16     19     $1,034,600
U.S. Agency for
International Development
Oversight and Evaluation,
and Foreign Assistance          29      –     108    137   $110,455,000
Regional Inspector General      10      –       5     15     $1,800,000
Other Foreign Assistance
Department of Justice –
International Criminal
Investigative Training
Assistance Program               2      –       –      2      $701,400
Department of State –
Office of Antiterrorism
Assistance                       –      –       2      2
International Narcotics
Control and Law
Enforcement                                                  $2,450,000
Nonproliferation,
Antiterrorism, Demining,
and Related Programs                                         $9,525,000
International Military
Assistance and Training                                      $1,850,000
                                    24
                        SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

 Foreign Military Financing                                                          $14,555,000
 Other Agencies/Offices
 American Battle
 Monuments Commission                      2            –         37        39        $1,000,000
 Library of Congress                       –            –          3         3         $104,400
 Veterans Affairs /Social
 Security Administration                 12             1        217      230        $19,117,000
 Asian Development Bank                   4             –          2        6           $138,800
 Peace Corps                              3             –          3        6         $3,336,100
 Centers for Disease Control
 and Prevention                            5            –          –         5          $364,400
 Millennium Challenge
 Corporation                               2            –          3         5     $134,052,000
 Department of the Treasury
 – Office of Technical
 Assistance                                1            –          –         1           $45,000

 Total                                  330            65      1,061    1,456      $358,759,900


Management Overview

       The management section runs smoothly. Service satisfaction scores on International
Cooperative Administrative Support Services (ICASS) and OIG surveys exceed the averages of
embassies worldwide. The section is led by a recently promoted management counselor on his
third management tour but with a wealth of financial management experience. Unit chiefs are
experienced and perform well.

        The embassy’s major administrative challenge is managing a multiyear program of
construction projects to improve security and rehabilitate ageing facilities at the chancery
compound and its main annex, Seafront. When the third phase of this project is complete later
this year, 300 employees will move to the chancery compound from off-site locations. The
Bureau of Overseas Buildings Operations plans to fund a chancery major rehabilitation project in
FY 2014 and a rehabilitation project of the Seafront compound in FY 2017.

        The chancery compound and Seafront suffered extensive flooding in 2011 and 2012 that
resulted in property damage and disrupted embassy operations. In response, the embassy
relocated generators and sensitive equipment from basement locations and worked with city
officials to repair damaged seawall. The mission has improved its emergency preparedness
posture to respond to future flood contingencies. Both sites, however, are susceptible to storm
surges and flood damage because of their location adjacent to Manila Bay. This vulnerability can
be mitigated but not eliminated. The classified annex to this report contains additional discussion
of the security implications of these flooding vulnerabilities for emergency preparedness.




                                       25
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Real Property

        Embassy Manila is located on a 17.4-acre compound near Manila Bay and is composed
of an historic chancery building listed on the Secretary’s Register of Culturally Significant
Properties, two new office annexes, a Marine security guard residence, and a 285-space parking
garage. The Seafront compound is located 2 miles from the chancery and consists of 42 staff
housing units, administrative office space, American Recreation Club (ARC) facilities, the GPS
Manila center, and a newly constructed VA regional office and outpatient clinic.

Seafront Compound

        As the chancery renovation project progresses, the embassy and the Bureau of Overseas
Buildings Operations will need to agree on a strategic plan for the future use of the Seafront
compound once it is no longer required for swing space. First opened for U.S. Government use
in 1950, this 23-acre mixed-use compound hosts office space noted above, as well as 42
townhouses and apartments that, although dated, appeal to families and employees who wish to
live close to work.

        For years, Seafront was the center of embassy community life. Community life and
housing have shifted to the modern communities of Makati and Bonifacio, which are close to the
international schools and provide extensive shopping, dining, and cultural outlets. Gone are the
days when an excellent restaurant facility, commissary, and softball field served the mission as a
center of the community.

        The Bureau of Overseas Buildings Operations believes the neighborhood surrounding
Seafront is no longer appropriate for embassy housing and has proposed selling a portion of the
compound to a developer for construction of a high-rise apartment block. The proceeds would be
used to purchase additional housing in Makati and Bonifacio. As an alternative, the embassy has
proposed a public-private partnership, whereby in return for the site, the developer would deed to
the Department those apartments built to U.S. specifications. Both approaches appear reasonable.
At the time of the inspection, a Bureau of Overseas Buildings Operations team was at the
mission to review future options for Seafront.

Fort Bonifacio Site

       The Fort Bonifacio site has been in dispute since 1956, when the U.S. Government
agreed to return several military sites but reserved Fort Bonifacio for future diplomatic and
consular use. For the past few years, the embassy has been working with the Philippine
Government regarding the potential transfer of this site to the Philippines, and those discussions
continue.

Baguio Official Residence

        The 1956 base transfer agreement also applied to a 76-acre site and residence at Camp
John Hay in Baguio, which is now used by the Ambassador and other embassy officials for
recreational and representational purposes. The residence was the site of the World War II
Japanese surrender of the Philippines. In 2012, it was added to the Secretary of State’s Register
                                                26
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

of Culturally Significant Properties. The Baguio property cost $180,000 to maintain in FY 2012,
and with its inclusion on the Secretary’s Register, now qualifies for additional maintenance funds
from the Bureau of Overseas Buildings Operations. In recent years, the Philippine Government
has not raised the issue of the Baguio property with the embassy, but title to the property remains
in dispute. In the long term, and to protect the U.S. Government’s claim on the property, the
embassy could pursue a number of strategies such as creating a nonprofit historical society to
manage the site or using it as a conference center for programs that advance U.S. interests.

        Embassy employees may rent rooms at the residence or in one of two cottages on the
compound when they are not being used for official purposes. The embassy has not revised the
rental fees since 1995. In accordance with 15 FAM 249.2, rental fees charged for transient
quarters are expected to cover operating costs.

       Informal Recommendation 16: Embassy Manila should update the fees charged for
       rooms at the Baguio residence and cottages.

Interagency Administrative Consolidation

         Embassy Manila received a partial waiver from the worldwide mandate to consolidate
USAID and Department administrative operations. The waiver requires the Department and
USAID to consolidate motor pool, LE staff recruitment, and residential maintenance operations
by the end of FY 2013, which will coincide with USAID’s expected move to the chancery
compound. Consolidation in these three areas is progressing satisfactorily, and Embassy Manila
is likely to meet this deadline.

Pacific Island Support

        In 2009, the Bureau of East Asian and Pacific Affairs transferred to Embassy Manila
regional support responsibilities for three small embassies in Palau, Micronesia, and the Marshall
Islands. The embassy provides regional support in human resources, financial management,
general services, IM, security, and facilities maintenance. Each office operates relatively
independently in providing services, and there is little coordination on the timing of travel or
support. Because travel is costly and support requirements often are interrelated, internal
communication and planning are key to meeting the needs of these island missions.

Recommendation 18: Embassy Manila should establish a working group to enhance
coordination of management support to Embassies Koror, Kolonia, and Majuro. (Action:
Embassy Manila)

        As noted above, Embassy Manila supports a wide range of administrative, security, and
consular functions at these missions. Travel from Manila to the island embassies is expensive
and time consuming; it takes 17 hours to fly from Manila to Majuro, for example. Funding for
island support travel, approximately $170,000 annually, is fragmented among several missions
and funding offices, which has hampered the provision of efficient support. Although the Bureau
of East Asian and Pacific Affairs allots funds directly to these missions for regional travel,
limited funding has resulted in Embassy Manila having to fund trips out of its regular budget.
The Bureau of Overseas Buildings Operations funds the travel of American facilities managers,
                                                 27
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

but Embassy Manila must fund the travel of ICASS LE staff and U.S. direct-hire employees
from other sections to maintain the new embassy compounds in Koror and Kolonia and the
leased chancery in Majuro. Without control of island funds, Embassy Manila could be unable to
provide effective management support to the island missions.

Recommendation 19: The Bureau of East Asian and Pacific Affairs should allot regional
support funding for Embassies Koror, Kolonia, and Majuro to Embassy Manila. (Action: EAP)

Financial Management

       The financial management office performs well and received high scores on both the
ICASS and OIG questionnaires. However, inspectors identified several areas for additional
followup.

Payroll

        Embassy Manila is experiencing significant difficulties with American payroll support.
An overseas customer satisfaction survey conducted for the Bureau of the Comptroller and
Global Financial Services in October 2012 ranked American payroll last in satisfaction scores of
the 15 service areas by that support office in the United States. The overall satisfaction score for
American payroll services has dipped 10 points since 2009. According to the bureau survey, a
lack of timely responses to American payroll requests drives the dissatisfaction for most
customers.

        Embassy Manila’s payroll office consists of two employees who prepare and send emails
to the Pay Intake system, an email inbox that receives American payroll queries at the Global
Financial Services Center. There is no tracking or feedback mechanism. Accordingly, there is no
indication when a request will be read, addressed, or acted upon, and there is no way to contact
an employee to follow up on unanswered mail.

        The payroll staff provided the inspectors with a lengthy list of pending actions relating to
post allowance and differential calculations, commencement of salary payments to eligible
family members and to summer hires, and other general inquiries. Sixty-five actions were more
than 3 weeks old. The inspectors were also provided a list of “completed actions—last 54 days.”
This list included approximately 250 items, not all of which had actually been completed. The
financial management officer indicated that American employees are becoming increasing
frustrated with Pay Intake, which creates problems for payroll staff members who bear the brunt
of complaints. Also affected are Manila’s ICASS service satisfaction scores, despite the fact that
the resolution to the problem is beyond the control of Manila staff.

Recommendation 20: The Bureau of the Comptroller and Global Financial Services should
develop and communicate to Embassy Manila a plan to improve the performance of the new Pay
Intake system for American payroll issues. (Action: CGFS)




                                        28
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Post Allowance

         The 2010 retail price survey used to establish the level of the embassy’s post (cost of
living) allowance did not note that embassy employees are eligible for point-of-sale exemptions
from sales and value-added tax of 12 percent. The 2012 retail price survey, completed during the
inspection, also did not mention this detail in its initial submission. Discussion of an embassy’s
eligibility for value-added tax refunds or exemptions is now a factor evaluated by the Office of
Allowances in its retail price survey calculations. Mission management agreed to complete the
retail price survey, including a description of tax exemptions available to mission employees,
prior to submission of the completed report to the Office of Allowances.

International Cooperative Administrative Support Services

        ICASS functions well. The financial management office services 44 separate accounts
and manages about $16 million in embassy-held funds. A review of ICASS council and budget
committee meeting minutes documented an active and effective ICASS program. For example,
in response to survey score declines for the community liaison office and medical unit, the
management section developed an action plan to improve services.

Vouchering

        Embassy Manila has 11 voucher clerk positions. The embassy sends permanent change-
of-station travel vouchers to the post support unit for processing. However, Manila can process
vouchers for significantly less than the post support unit—$7.51 per financial strip code instead
of $12 per strip code. Embassy Manila’s low costs may make it a candidate for accepting
regional work. Manila already processes vouchers for three missions in Kolonia, Koror, and
Majuro.

Recommendation 21: The Bureau of the Comptroller and Global Financial Services, in
coordination with Embassy Manila, should evaluate the cost-effectiveness of allowing the
embassy to process additional vouchers and authorize such action if feasible. (Action: CGFS, in
coordination with Embassy Manila)

Human Resources

       The human resources office operates effectively, as reflected by positive survey
responses, high ICASS customer satisfaction scores, and staffing efficiency statistics. The
American section chief directs a cohesive, responsive team. The recently updated LE staff
handbook is comprehensive and easily accessible on the intranet site. The section collaborates
with the EEO counselors and LE staff liaisons to enhance awareness of and expand the program.

        The eligible family member hiring program offers many employment opportunities for
family members. With more than 60 positions, there are more jobs than can be filled. However,
the inspectors heard numerous complaints of delays in the hiring process. Many factors affect the
appointment and clearance process, and communication with potential applicants early in the
process is critical to managing expectations. The human resources office is managing this
complex process appropriately. A new family member employed in the section has broad
                                                29
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

experience running family member hiring programs and has taken on the issue of client
communication as a priority.

        The U.S. Embassy Filipino Employees Association serves more than 1,000 Filipino
employees. In addition to its major objective to improve and promote relations between LE staff
and embassy management, the association raises funds to assist financially stressed staff and
those affected by natural disaster. The LE staff member association board meets regularly with
embassy management. LE staff members interviewed by the OIG team expressed satisfaction
with employment at the embassy and the prestige it brings. The Ambassador’s initiatives to LE
staff members—including a quarterly reception for newly hired employees and a photo
opportunity in his office—have been well received. LE staff concerns include the impact of the
Department’s worldwide salary freeze, the lack of health benefits for extended family members,
and the desire to secure additional training opportunities.

         The mission awards program is well structured and advertised. Ceremonies are held
twice each year. The interagency joint awards committee reviews award nominations to
ensure criteria are met and repetitive rewards are kept to a minimum. Because the Bureau of
East Asian and Pacific Affairs cut the mission’s awards funding by 20 percent in FY 2012, it
is particularly important that the awards process be seen as fair and equitable.

Eligible Family Member Work Requirements Statements

       Work requirements statements for a number of eligible family members were overdue at
the time of the inspection. The embassy has a good tracking system for other categories of
employee evaluations and work requirements statements but not for eligible family members.

       Informal Recommendation 17: Embassy Manila should track the submission of work
       requirements statements for eligible family members and handle delinquent cases
       accordingly. (Action: Embassy Manila)

Training

        Training is budget driven, with each section receiving its own training allocation to
manage. As a result of this decentralized approach, there is little oversight to ensure that overall
embassy priorities are being met. The embassy would benefit from a comprehensive training
plan and budget that is directed by the human resources officer that could be adjusted as
priorities change. Such a plan would help the embassy meet its most urgent training needs.

Recommendation 22: Embassy Manila should establish a comprehensive, missionwide
training plan and allocate specific resources for training under the direction of the human
resources officer. (Action: Embassy Manila)

Equal Employment Opportunity and Federal Women’s Program

       The embassy has active EEO and Federal Women’s programs that receive the
Ambassador’s strong and visible support. In addition to one Federal Women’s program
coordinator, the embassy has two American EEO counselors and is identifying two others. Ten
                                              30
                          SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

local staff liaisons are strategically placed across section and agency lines. EEO counselors and
liaisons have received formal training. An Office of Civil Rights team visited Manila in 2010 and
trained all available American and local employees.

       Recent EEO complaints have spurred embassy leadership to undergo a process review to
ensure American and LE staff members understand their rights and responsibilities under the
program. Although the embassy displays EEO information prominently on bulletin boards
throughout the facilities, information is difficult to find on the post intranet site. The counselors
began addressing this weakness during the inspection by adding an “EEO Corner” to the weekly
embassy newsletter and reviewing Web site access and content.

General Services

        The general services office operates effectively. Its various services received average to
good scores on OIG questionnaires. The office supports an embassy of more than 1,400
employees, 270 residences, and annexes in various locations in the city. The office operates from
a building on the Seafront compound. LE staff members form a cohesive group; most are long-
term employees.

        The section is, however, overstaffed. Its workload does not require five American general
services officer positions. Three general services officers manage only one functional area each;
these are contracting and procurement, property and supply, and housing. The remaining general
services portfolio is divided between the other two general services officers. The management
officer and supervisory general services officer agree that a general services officer position
could be eliminated without reducing effectiveness.

Recommendation 23: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Human Resources, should eliminate a general services officer position at Embassy
Manila. (Action: EAP, in coordination with DGHR)

Procurement and Contracting

       The contracting and procurement unit performs adequately. The unit is a good service
provider and partners well with the financial management office in administering the embassy’s
purchase cycle. The section provides procurement services to 34 agencies and procures about
$17.6 million in goods and services annually. Although the Department is the major client, 39
percent of the workload comes from other agencies. The unit awards, administers, and closes out
contracts in accordance with regulations and in a timely manner.

        The OIG team reviewed a selection of procurements for documentation requirements and
competition procedures and concluded that the unit followed proper procedures, competing most
but not all simplified acquisitions. However, purchases of more than $15,000 solicited
electronically did not always receive competition to the maximum extent practicable as required
by Federal Acquisition Regulation 13.104. For example, three vehicle solicitations were
announced on the embassy’s Internet site, and each received only one offer. The section accepted
the offers, believing proper competition had occurred. As a result, the embassy was not assured it
received the lowest price for the three vehicles.
                                                  31
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 24: Embassy Manila should compete its simplified acquisitions according to
regulations. (Action: Embassy Manila)

Trafficking in Persons Procedures

        Contracts must include Federal Acquisition Regulation clause 52.222-50, “Combating
Trafficking in Persons.” The clause contains contractor requirements and Department remedies
related to trafficking in persons. The Philippines is a high-risk area for trafficking in persons
activity. The procurement unit is aware of its responsibilities concerning trafficking issues. Most
embassy contracts include the required trafficking clause. Exceptions are few and limited to
older contracts. The embassy plans to amend contracts that lack the clause when they are
renewed. A structured monitoring program is not in place, but the contracting officer and
contracting officer’s representatives monitor contractors. Further, the embassy discusses
trafficking requirements during site visits and preproposal and preperformance conferences and
interviews contractor employees. The embassy does not retain written records of such activities,
however.

       Informal Recommendation 18: Embassy Manila should document in writing its
       trafficking in persons contract monitoring activities.

Property and Supply

       The property and supply unit manages $25 million worth of U.S. Government property
and operates 11 warehouses. The unit performs well, has sound practices, and reports its
inventory properly and on time each year to the Bureau of Administration. Inventory
accountability is its strong suit. In 2012, the unit reported nonexpendable property shortages of
0.06 percent, a commendable achievement.

Motor Pool

       The motor pool is a service-oriented operation that emphasizes preventive maintenance
and driver training. However, the unit does not have in place procedures to record daily motor
vehicle use records properly. Passengers are rarely asked to sign for rides, and drivers do not
always complete fully the Daily Vehicle Use Record (Form OF-108) prescribed by 14 FAH-1 H-
814.1. As a result, the embassy does not have assurance that daily, required safety checks are
made and that fuel accountability records are maintained correctly.

Recommendation 25: Embassy Manila should require that passengers acknowledge their trips
in writing and that drivers complete the Daily Vehicle Use Record (Form OF-108). (Action:
Embassy Manila)

Other Authorized Use Charges

        The embassy’s motor vehicle policy, updated in early 2012, sets policies for use of
official government vehicles. The embassy charges passengers for other authorized use;
however, the embassy does not disclose the rates in its motor vehicle policy, nor does it calculate
rates in accordance with 14 FAM 433.4 b., which requires recovery of all fixed and variable
                                               32
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

costs and an annual computation. As a result, the government may not be recovering all costs
associated with this use.

Recommendation 26: Embassy Manila should calculate rates for other authorized vehicle use
in accordance with Department of State regulations and on an annual basis. (Action: Embassy
Manila)

        The embassy has operated a robust home-to-office shuttle service for many years, which
involves eight vehicles operated at an annual cost of $100,000. The standard at 14 FAM 433.3-1
allows the chief of mission to approve other authorized use of vehicles when public
transportation is unsafe or not available or when such use is advantageous to the government.
The exercise of this authority requires a written finding of the circumstances that justify the use
of official vehicles. The embassy has not issued a recent written finding of circumstances, and
the history of Manila’s program is not discernible. As a result, it is not clear whether the shuttle
program is in the government’s best interest.

Recommendation 27: Embassy Manila should justify that its home-to-office shuttle program is
in the government’s best interest with a chief of mission written finding. (Action: Embassy
Manila)

Shipping and Customs

        The shipping and customs unit handles incoming and outgoing shipments well. The
section processes clearances for all shipments under chief of mission authority, including a large
volume of military shipments. Although the unit received average scores on the OIG workplace
and quality of life questionnaires, its 2012 ICASS scores were on par with worldwide averages.

        The unit is understaffed, given its heavy workload. (b) (5)                    and customer
service may become problematic absent corrective action. The unit has sought additional
positions, but other needs have taken priority. The impending USAID consolidation will result in
the transfer of one shipping clerk to the unit. After this addition, the unit will still lack an LE
staff member for general administration. The general services office currently has four vacant LE
staff positions that could be reprogrammed to fill this urgent need.

       Informal Recommendation 19: Embassy Manila should request approval from the
       International Cooperative Administrative Support Services council to reprogram a vacant
       local employee position for the shipping and customs unit.

         Some embassy employees experience difficulty registering their vehicles for permanent
diplomatic plates because of Philippine requirements to document engine serial numbers through
a physical inspection process. Some vehicle model engines cannot undergo this process without
incurring damage to the vehicle, and owners sometimes elect to finish their tours on temporary
diplomatic plates instead of obtaining permanent ones. This option precludes an employee from
later selling the vehicle in the Philippines. The embassy does not disclose this issue in the
standard newcomer arrival communication, such as the Travel Message Two, the post report, and
welcome to post information, that the community liaison office provides to incoming employees.

                                        33
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation 28: Embassy Manila should include in its post arrival information details
about Philippine vehicle registration requirements. (Action: Embassy Manila)

Housing

       Employees are generally satisfied with the housing program but give lower marks to
government-owned housing on the Seafront compound and to equity of the housing assignments
process. The Seafront residences, apartments, and townhouses account for 42 of the 270 housing
pool units and are considered less desirable than leased units. This perceived inequity is a
challenge for the interagency housing board. A facilities management renovation program
upgrades Seafront units during vacancies between residents. The embassy convened a town hall
meeting during the inspection to listen to customer concerns about housing and security
conditions at Seafront.

       The interagency housing board provides good oversight. However, transparency of
housing assignments was a source of complaint. Housing board meeting minutes were not
available to the embassy community.

       Informal Recommendation 20: Embassy Manila should post interagency housing board
       minutes on its intranet site.

        The embassy participates in the Rental Benchmark Initiative program and obtains leases
within the cost limits set by this program. Eight of the pool’s 32 over-standard units have not
received lease waivers from the Bureau of Overseas Buildings Operations. Six units without
waivers are leased by individual Joint U.S. Military Assistance Group employees under the
group’s overseas housing allowance program. Department waivers for these units are not
required under 15 FAM 263. The interagency housing board approves these cases locally. The
other two units were leased 2 years ago. The failure to secure these waivers was due to oversight.

        The Joint U.S. Military Assistance Group is under chief of mission authority but does not
subscribe to ICASS housing services. Its leases are still subject to procedures in 15 FAM 263,
which require that the regional security officer and the post occupational safety and health officer
approve properties before leases are signed. The housing office does not track these
certifications. As a result, there is no record that these leases meet security and safety and health
standards.

Recommendation 29: Embassy Manila should establish procedures to require that the regional
security officer and post occupational safety and health officer approve properties before leases
are signed. (Action: Embassy Manila)

Facilities Maintenance

       The facilities maintenance unit receives good marks from customers for office
maintenance but only fair marks for residential maintenance. The facility manager directs
administration, strategic planning, and Bureau of Overseas Buildings Operations liaison on the
ongoing office construction projects. The deputy facility manager directly oversees the
embassy’s maintenance program. Together, they manage a large staff of engineers, tradesmen,
                                                34
                            SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

and administrative workers. The unit processes work orders and tracks them efficiently. The
Office of Safety, Health, and Environmental Management conducted its last site visit in May
2011. The embassy has satisfactorily addressed all of the report’s 60 recommendations.

Restroom Facilities

         The newly constructed office annex does not contain a sufficient number of toilet
facilities for employee areas. Ninety-nine women and 73 men work on the ground floor of the
consular section, sharing 2 men’s and 2 women’s toilet rooms. On several occasions, the
inspectors witnessed lines of women waiting to enter the women’s facilities and, sometimes, use
of the men’s facility as a unisex bathroom. Lack of privacy for adjacent bathrooms is another
source of complaint. Although the number of toilet facilities does meet the office-specific
requirements contained in the International Building Code (Section 2902.1), it does not meet the
general use standard contained in the Code of Federal Regulations 1 for the number of occupants
in the building. As a result, the facilities are overloaded and a constant source of employee
frustration.

Recommendation 30: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Manila, should install additional toilet facilities to meet general use standards and
provide relief for consular employees. (Action: OBO, in coordination with Embassy Manila)

        Work orders for short-term leased properties present challenges. Generally, the embassy
seeks to require landlords to perform routine residential maintenance. Recently, the facilities
office began closing these orders in its database when they were assigned to the housing unit for
landlord action. However, in some cases the landlords do not complete work on a timely basis,
and work orders are closed before completion. This premature action prevents facilities staff
from responding efficiently to customer inquiries in such cases.

          Informal Recommendation 21: Embassy Manila should refrain from closing short-term
          lease-related work orders in the facility management work order system until the facilities
          office can confirm that the landlords have completed the work.

Global Publishing Solutions Manila

        GPS Manila is a printing and publishing facility on the Seafront compound that is part of
the Bureau of Administration’s Global Information Services division. GPS is the Department’s
worldwide centralized resource for printing, publishing, and domestic copier management
services. GPS is a fee-for-service organization, financed by the Department’s working capital
fund. Manila is one of GPS’s five cost centers. GPS Manila opened in 1950 and was part of the
U.S. Information Agency until that agency merged with the Department in 1999. After a 2007
Office of Management and Budget Circular A-76 competition, GPS restructured to reduce costs.
GPS Manila is emerging from a period of personnel turbulence as the office has sought to
identify a suitable director with printing and management expertise. The current deputy director,
employed on a limited noncareer appointment, brings the requisite experience and background to


1
    29 CFR 1910.141 (c).
                                         35
                             SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

manage operations. The Manila operation is better managed than in previous years, and its
quality of production and customer service are superb.

        GPS Manila has changed many aspects of its operations, such as acquiring a new four-
color printing press, but it still fails to meet expectations to operate as a business unit as
envisioned by the Office of Management and Budget Circular A-76 competition process.

       GPS Manila remains unprofitable. In 2012, its expenses exceeded its revenue by
$360,000, an 11 percent shortfall. Revenue has steadily declined from $5.3 million in 2004 to
$3.2 million in 2012. GPS Manila has reduced costs, particularly in salaries, but continues to lose
money. With guidance from GPS Washington, Manila has taken steps to reduce shipping costs,
streamline the graphic design process, and change pricing structures to capture production costs
more accurately.

                                GPS Manila Net Financial Statements

       Fiscal Year              Revenue              Expenditures             Profit/Loss
           2007                $3,052,388             $4,048,256                ($995,868)
           2008                $3,262,523             $4,840,791              ($1,578,268)
           2009                $3,765,141             $3,596,950                 $168,191
           2010                $3,910,159             $4,122,643                ($212,484)
           2011                $3,114,121             $4,082,549                ($968,428)
           2012                $3,178,885             $3,539,372                ($360,487)
                                            Total Loss FYs 2007–2012          ($3,947,344)
  Note: Values in parentheses indicate loss.
  Source: OIG analysis of Working Capital Fund records, FYs 2007–2011

        The Bureau of Administration is preparing a plan to stem operating losses that affect
GPS’s worldwide operations, including Manila, but that plan is still in draft form and the bureau
has not communicated these plans to GPS Manila management. Long-term viability for GPS’s
worldwide operations will require securing new business and new customers, further cutting
costs, closing centers, or outsourcing services to the private sector. GPS Manila operates under
several constraints. GPS Manila’s status as a captive supplier to the Bureau of International
Information Programs, its main customer, means that it sometimes prints materials without
confirmed funding from that bureau. The burden of U.S. Government personnel regulations,
Philippine labor law inflexibility, high shipping expenses, and substantial ICASS charges
($450,000 in FY 2012 alone) make it difficult to compete against private-sector suppliers
elsewhere that do not face similar cost challenges. In its inspection of GPS Manila’s parent
organization in 2012, OIG recommended that the Bureau of Administration develop a plan to
reduce operating losses. The same recommendation is warranted here.

Recommendation 31: The Bureau of Administration should prepare and distribute a plan to
restructure operations at Global Publishing Solutions Manila to eliminate working capital fund
operating losses. (Action: A)

                                       36
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Information Management

       The IM office supports 1,600 customers at 10 locations in the Philippines, as well as at
U.S. embassies in Majuro, Kolonia, and Koror. Since 2009, the IM office has been focused on
moving customers to new work spaces, including the Marine house, VA clinic, and a new office
annex. Another move to a second annex will occur in April 2013 to accommodate the growing
number of customers on the chancery compound.

        Embassy Manila’s IM program generally meets customer needs in this challenging
environment. The unit received high scores on both ICASS and OIG surveys. The IM team is
capable and morale is good, despite long work hours and an unusually heavy workload
associated with office moves, which will continue throughout 2013. The IM office has also had
staffing gaps and frequent changes in priorities because of a series of major initiatives at the
mission.

       The OIG team inspected all facilities; reviewed systems security, training facilities, and
the mail room; and concluded that internal operations are solid. The inspectors identified project
management, help desk ticketing, dedicated Internet networks, staff position descriptions, and
membership composition in the local Information Technology Change Control Board as areas for
improvement. The classified annex to this report contains recommendations on contingency
planning, standard operating procedures, and physical security pertaining to IM operations.

Information Management Project Management

        The mantra of the IM team is to “take care of the customers first,” which it does well;
however, there are times when work is prioritized poorly. The IM staff is spread over various
locations, which makes it difficult to hold regular staff meetings. Recent IM office projects include
270 workstation consular system refreshes, a presidential election day event, installation of 25
workstations at Camp Aguinaldo, the Defense attaché office renovation (including installation of
a dozen workstations), an elaborate cyber security training for the community, implementation of
the Global Information Technology Modernization program for the classified and unclassified
systems, cable installation at the chancery annex, and voice-over Internet protocol installation for
the mission. Staff has attended several meetings with USAID to discuss eventual IM integration.
In sum, these projects have imposed an unusually heavy burden on IM staff.

        The IM office could, however, manage this workload more efficiently with better
planning. None of the projects underway is listed on the IM office Web site or tracked
systematically to identify requirements, taskings, and milestones in advance. Although IM staff
members are generally aware of current projects, mission managers may not be and may assign
new, sometimes urgent taskings to IM staff. To increase mission awareness of office priorities
and timelines and to cope better with competing requirements, IM would benefit from
strengthening its project planning capability by clarifying implementation steps and timelines
and providing an opportunity for peer review.

Recommendation 32: Embassy Manila should develop information management office project
plans, post them on the office Web site, and update the Web site regularly to reflect current
priorities. (Action: Embassy Manila)
                                        37
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Off-Site Support

        Customers in Majuro, Kolonia, and Koror are generally satisfied with IM support. The
available bandwidth in Majuro is between 2 and 4 megabits per second, which limits the
capability for digital video conferences or voice-over Internet protocol phone support. The IM
office is working to develop better infrastructure for these missions. Although the embassy has
signed memoranda of understanding for support visits, there is insufficient followup. The OIG
team reviewed the temporary duty roster and found that the IM office had not completed trip
reports for many of its visits. Trip reports are essential for documenting the purpose of the visits
and the outstanding action items for followup.

       Informal Recommendation 22: Embassy Manila should produce trip reports for all
       information management office assistance visits to neighboring embassies.

Help Desk

        Not all help desk tickets are recorded in the eServices application. An on-site IM
technician handles consular support requests, whereas radio technicians at the Seafront
compound use spreadsheets to track customer requests. Sometimes requests are handled ad hoc
by a technician walking through a section or via a phone call. Service requests are then
coordinated on an ad hoc basis. As a result, the help desk risks failing to respond to requests or
duplicating service. With a growing customer base, the help desk may need additional staff, but
staffing increases must be supported by accurate workload statistics, such as those provided by
eServices.

       Informal Recommendation 23: Embassy Manila should implement a help desk
       coordination plan, complete with standard operating procedures, for managing all help
       desk service requests.

Dedicated Internet Networks

        Embassy Manila has 25 dedicated Internet networks that require service and support and
that cost approximately $172,000 annually to maintain. The upcoming move to the new building
and centralization of agencies provide an opportunity to reduce the number of networks.
According to IM staff, all but a handful can be eliminated without affecting customer operations.
Per 5 FAM 872.1, the embassy is required to reduce the number of dedicated Internet networks
wherever possible. Reducing the number of terminals could save approximately $165,000 in
annual operating expenses and reduce management workload associated with running a large
number of independent networks.

Recommendation 33: Embassy Manila should review its dedicated Internet network operations
and consolidate or close redundant networks where possible. (Action: Embassy Manila)

Information Management Staff Development

       With the high number of projects and office moves, LE staff development and training
occur on an ad hoc basis, which hampers the section’s ability to support its growing IM
                                              38
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

community customer base over the long term. A more systematic approach to staff development
and training would alleviate the problem.

       Informal Recommendation 24: Embassy Manila should develop a systematic training
       plan for information management staff that includes rotation of local employees among
       different information management subunits whenever possible.

Local Information Technology Change Control Board

        Embassy Manila has established a local Information Technology Change Control Board.
However, the majority of the board members are from the IM office. Per 5 FAM 862.2 a., the
local Information Technology Change Control Board should include other members, as
appropriate. Adding representatives from other sections, such as PAS and consular, would
prevent the appearance of a conflict of interest with the IM office overseeing its own network
changes, as well as increase awareness of customer business needs among IM staff members.

       Informal Recommendation 25: Embassy Manila should include representatives from
       different embassy sections on the local Information Technology Change Control Board.

Innovative Practice: Broad Range Communication

Innovative Practice: Broad Range Communication

Issue: Embassy Manila employees work in a variety of locations, which makes it difficult for
them to participate in embassywide forums.

Response: The IM office deployed a videoconferencing application, Vbrick, which allows the
office to broadcast four channels to every computer on the unclassified system. Vbrick also
supports filming and live broadcasts, including those from the Secretary of State and
Ambassador, and customizes content to large display in the lobby.

Result: Broadcasts reach audiences in many locations around the embassy. The system has
allowed the embassy to terminate a significant number of cable television subscriptions, resulting
in cost savings.




                                       39
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Quality of Life
        Employees assigned to Embassy Manila receive a hardship differential at the rate of 20
percent of basic salary to compensate for pollution, crime, heavy traffic, and tropical weather
conditions. Overall quality of life is reasonably good, however, and the standard tour of duty is 3
years. The mission has excellent international schools, good restaurants and shopping, and a
reasonable standard of medical services. Opportunities for family member employment are
numerous both inside and outside the mission.

Health Unit Staffing

        The health unit provides good services but is overstaffed. The unit is located at the
Seafront compound and includes an American regional medical officer, an American Foreign
Service health practitioner, a local physician, four registered nurses, an x-ray technician, a
medical laboratory technologist, and three administrative assistants. An LE staff physician
position was added in 2010. In addition to the Philippines, Manila’s regional medical officer
formerly had responsibility for Tokyo and its five constituent posts; Seoul and its constituent
post; Taiwan’s two locations; and Vladivostok, Russia. The regional medical officer’s
responsibilities have diminished over the years and now cover only the Philippines and the three
small islands in the Pacific. The Philippines has also made massive strides in improving its
hospitals and medical care. The regional medical officer cites three excellent hospitals available
for mission personnel use.

        Given these changes in staff responsibilities and improvements in local health care
quality, it is appropriate to revaluate the staffing makeup of the medical unit. An anticipated
local nurse position vacancy will allow the embassy the flexibility to recruit a second Filipino
physician who is American educated and board certified, and the potential relocation of the
medical unit to the chancery, discussed in detail below, would reduce the need for one or more
local positions. There is also no longer a need for two American medical staff members in
Manila. Abolishing a U.S. direct-hire position would save about $571,000 annually in ICASS
costs. Additional efficiencies are likely possible.

Recommendation 34: Embassy Manila, in coordination with the Office of Medical Services
and the Bureau of Human Resources, should abolish U.S. direct-hire position number 59-
696000. (Action: Embassy Manila, in coordination with MED and DGHR)

Relocation of Seafront Medical Office and Community Liaison Office

       The medical unit and the community liaison office are located at the Seafront compound,
about 2 miles from the chancery annex. The medical unit operates at two locations: the Seafront
compound, staffed by 10 employees, and the chancery compound, staffed by 2 employees. The
chancery compound site functions more as a clinic than a health unit and provides many of the
same services as the Seafront clinic. Similarly, the community liaison office is located far from
the chancery, its main customer base. Unfortunately, when the embassy developed plans to
consolidate additional employees at the chancery compound, neither the medical unit nor the
community liaison office was taken into account. With the completion of the new annex in FY
                                       40
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

2013 and the subsequent relocation of 300 mission employees to the chancery, the inspectors
believe that consolidating the health unit and the community liaison office in the chancery,
where most of their clients work, will provide better service to customers.

Recommendation 35: Embassy Manila, in coordination with the Bureau of Overseas Buildings
Operations and the Office of Medical Services, should implement a plan to consolidate the
Manila medical unit and community liaison office at the chancery compound. (Action: Embassy
Manila, in coordination with OBO and MED)

        The consolidation plan must also assess whether there is a continued need for a medical
laboratory; a full-service, on-site pharmacy; and an x-ray machine. With the availability of
medical laboratories and pharmacies in Manila, the need for in-house operations is not clear. The
x-ray machine, in particular, is obsolete.

       Informal Recommendation 26: Embassy Manila should perform a cost-benefit analysis
       to determine whether it is cost-effective to contract out both the medical laboratory and
       the pharmacy.

       Informal Recommendation 27: Embassy Manila should dispose of the medical unit’s x-
       ray machine.

Community Liaison Office

         The community liaison office is performing satisfactorily but is hampered by an
inefficient distribution of job duties among American employees. Job responsibilities for the two
part-time assistant coordinators are narrowly defined. For example, one position is responsible
only for events planning, and the other is responsible only for newsletter editing. None of the
community liaison office American employees had work requirements statements at the time of
the inspection. All are new hires, but each has been in the job for more than 45 days. In addition,
all will depart in 2013, which will necessitate recruitment actions in the near future. Although the
work is getting done and satisfaction scores are relatively high, the workload falls mainly to the
full-time employee because the responsibilities of the part-time employees are stovepiped.

Recommendation 36: Embassy Manila should rewrite the position descriptions of the two part-
time community liaison office coordinators to include a wider range of responsibilities and to
facilitate the equitable distribution of work. (Action: Embassy Manila)

American Recreation Club

        Located at the Seafront compound, ARC provides services and recreational facilities for
the embassy community. ARC administers concession agreements for food services and a gift
shop at the chancery and Seafront compounds. It also runs recreational facilities, sells gas and
shuttle coupons to eligible personnel, and sponsors community events. Profitable in FY 2011,
ARC generated a slight loss in FY 2012 due to lower event revenues and one-time costs. The
inspectors encouraged ARC management to cohost more events with the community liaison
office. Embassy management is fully engaged with ARC, and the board is committed to
improving ARC’s services as well as its financial footing. The board is to be commended for
                                                41
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

recently fending off bankruptcy (b) (6)


        ARC is also the umbrella organization for two independently governed organizations:
Amerikids, a parent-cooperative preschool for embassy children, and the U.S. Embassy Club, a
charitable fundraising group. In 2008, the Office of Commissary and Recreation Affairs
instructed the embassy to bring Amerikids and the U.S. Embassy Club under the ARC umbrella
through memoranda of agreement. The respective boards of these two organizations now report
to the ARC board. However, the U.S. Embassy Club’s fundraising is not authorized under the
existing ARC charter, last revised in 2005, as required by 6 FAM 551 a.

Recommendation 37: Embassy Manila, in coordination with the Bureau of Administration,
should revise the charter of the American Recreation Club to reflect current activities, including
charitable fundraising. (Action: Embassy Manila, in coordination with A)

U.S. Embassy Golf Club

         The U.S. Embassy Golf Club is an organization established years ago by embassy golfers
to promote the sport and build relationships between the embassy and the local and expatriate
communities. There are 125 members who pay annual dues. The club has sponsored an annual
Independence Day golf tournament for the past 3 years that includes a fundraising component.
The club president seeks embassy management approval to solicit sponsorships and provides a
list of potential sponsors for conflict-of-interest review. In the past, the embassy has not sought
approval for the Ambassador’s personal involvement in the event from the Office of the Legal
Adviser and the Bureau of East Asian and Pacific Affairs’ deputy assistant secretary, as required
in 2 FAM 962.1-11 a.

Recommendation 38: Embassy Manila should request formal approval from the Office of the
Legal Adviser and the Bureau of East Asian and Pacific Affairs for the Ambassador to
participate personally in the U.S. Embassy Golf Club’s fundraising efforts. (Action: Embassy
Manila)

        The public may perceive the U.S. Embassy Golf Club and its fundraising activities as
official embassy events due to the direct involvement of the Ambassador and embassy
employees. However, the club is not chartered under 6 FAM 500, which places the embassy and
its employees at risk should the club lack the proper insurance, a formal means of accounting for
funds, or adequate internal controls. Department regulations at 6 FAM 561 b. require that the
club be brought under the umbrella of an officially chartered organization.

Recommendation 39: Embassy Manila, in coordination with the Bureau of Administration,
should place the U.S. Embassy Golf Club under the auspices of the chief of mission through a
memorandum of agreement with the American Recreation Club. (Action: Embassy Manila, in
coordination with A)




                                       42
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Overseas Schools

        Embassy employees express general satisfaction with schooling options. (b)(5)(b)(6)
                                                                              As a sustaining
member organization, the embassy is ensured board membership and embassy students have
priority admission. (b)(5)(b)(6)
                                                                    the board is searching for
additional property to expand the school.




                                      43
                          SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED


      Management Controls
              Embassy Manila has developed a formal management controls review process structured
      around the annual submission of the chief of mission management controls statement of
      assurance. The embassy conducted a risk analysis assessment in 2012, prior to the preparation of
      the statement. Although neither the chief of mission’s assurance statement, completed on July
      31, 2012, nor the risk survey identified any major control weaknesses, the inspectors discovered
      some internal control weaknesses that require attention.

      Cashiering

              The cashier reconciliation disclosed two management control weaknesses. First, the
      cashier commingles personal and official funds, ostensibly to reduce the number of coins in her
      accountability. Although this practice makes the cash reconciliation quicker, according to 4
      FAH-3 H-393.3-4 c., the cashier is not authorized to commingle official and personal funds,
      which can allow prohibited activities such as theft or temporary loans of funds to go undetected.

      Recommendation 40: Embassy Manila should instruct its Class B cashier to segregate official
      funds in the cashier’s accountability. (Action: Embassy Manila)

              During the reconciliation process, the consular subcashier entered the cashier’s office to
      deposit the day’s collection and make photocopies. Per 4 FAH-3 H-393.4-3 a., access to the
      cashier’s office should be controlled at all times and only authorized personnel should be
      permitted access. (b) (5)
                                                                                     open access to the
      cashier’s office cannot be permitted.

      Recommendation 41: Embassy Manila should limit access to the cashier’s office to authorized
      personnel only. (Action: Embassy Manila)

      Subcashiers

              The embassy has 18 subcashiers, which is an excessive number. With the consolidation
      of personnel in the chancery compound, there will be less need for subcashiers.

             Informal Recommendation 28: Embassy Manila should reduce the number of
             subcashiers and the levels of their advances.
(b) (5)




                                             44
                                 SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

      Recommendation 42: (b) (5)




(b) (5)




      Recommendation 43: (b) (5)



      Consular Management Controls

             Inspectors reviewed the consular management controls and found a number of
      shortcomings. Because of the large size of Manila’s consular operations, eight officers serve as
      accountable consular officers, in some cases for the first time in this role. Visa foil and blank
      passport inventories were in good order, (b) (5)




                Informal Recommendation 29: Embassy Manila should review consular management
                controls practices and provide regular training for all accountable consular officers.

      Consular Subcashier

                The accountable consular officer for fees manages his oversight conscientiously. (b)
      (b) (5)                                                                                    (5)




                                                                                         Inspectors
      have reinforced the importance of impeccable oversight of cashiering operations in the consular
      section, and embassy employees are taking appropriate corrective action.

  (b) (5)




                                               45
                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED
(b) (5)




     Recommendation 44: (b) (5)


           (b) (5)




     Recommendation 45: (b) (5)


     American Recreation Club Cash Controls

           ARC financial records are in order and management controls generally sound. (b) (5)



           Informal Recommendation 30: (b) (5)




                                          46
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: The Office to Monitor and Combat Trafficking in Persons, in
coordination with Embassy Manila, should develop a monitoring plan for high-risk grantees in
the Philippines to improve monitoring and evaluation of its foreign assistance programs. (Action:
J/TIP, in coordination with Embassy Manila)

Recommendation 2: Embassy Manila should develop a comprehensive interagency strategy to
expand U.S. exports to the Philippines that is consistent with the National Export Initiative.
(Action: Embassy Manila)

Recommendation 3: Embassy Manila should implement a missionwide public affairs strategy
that clarifies the mission’s central messages and priorities and allocates resources accordingly.
(Action: Embassy Manila)

Recommendation 4: Embassy Manila should develop a plan to improve oversight and
direction of the cultural unit and the Information Resource Center. (Action: Embassy Manila)

Recommendation 5: Embassy Manila should require the regional English language officer to
develop and execute a quarterly program plan consonant with the officer’s regional
responsibilities. (Action: Embassy Manila)

Recommendation 6: Embassy Manila, in coordination with the Bureau of Consular Affairs,
should designate an officer as deputy to the consul general. (Action: Embassy Manila, in
coordination with CA)

Recommendation 7: Embassy Manila, in coordination with the Bureau of Human Resources,
should propose an increase in the number of language designated consular positions for inclusion
in the next language designation review. (Action: Embassy Manila, in coordination with DGHR)

Recommendation 8: Embassy Manila should implement a plan to reschedule appointments for
consular clientele when there is significant threat of flooding. (Action: Embassy Manila)

Recommendation 9: Embassy Manila should prepare a workload analysis to assess the need
for additional information management office staffing and approach the International
Cooperative Administrative Support Services council with a proposal to improve support to the
consular section. (Action: Embassy Manila)

Recommendation 10: Embassy Manila should restructure processing of applications for
Consular Report of Birth Abroad of a Citizen of the United States to comply with regulations.
(Action: Embassy Manila)

Recommendation 11: Embassy Manila should not allow mission employees to use any
method other than Class A and Class B referrals to provide information on nonimmigrant visa
applicants. (Action: Embassy Manila)



                                       47
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 12: Embassy Manila should send any inquiries or information received
regarding nonimmigrant visas to the nonimmigrant visa unit for an appropriate response.
(Action: Embassy Manila)

Recommendation 13: The Bureau of Consular Affairs should respond to the request of
Embassy Manila and Embassy Majuro regarding access to the immigrant visa system for
Embassy Majuro. (Action: CA)

Recommendation 14: Embassy Manila should analyze the reasons for reduced productivity in
the fraud unit and undertake additional field work to investigate potential fraud. (Action:
Embassy Manila)

Recommendation 15: Embassy Manila, in coordination with the Bureau of Consular Affairs,
should calculate the consular agent’s workload and time spent on official duties and take
appropriate action to compensate the agent appropriately for his work hours. (Action: Embassy
Manila, in coordination with CA)

Recommendation 16: Embassy Manila should implement a plan to budget for and repair the
facilities, dispose of excess property, and replace nonfunctioning windows and microphones at
the U.S. consular agency in Cebu. (Action: Embassy Manila)

Recommendation 17: Embassy Manila should implement procedures to provide regular
supervisory oversight and administrative support for the consular agency in Cebu, using a
checklist of vital consular and management issues as a guide. (Action: Embassy Manila)

Recommendation 18: Embassy Manila should establish a working group to enhance
coordination of management support to Embassies Koror, Kolonia, and Majuro. (Action:
Embassy Manila)

Recommendation 19: The Bureau of East Asian and Pacific Affairs should allot regional
support funding for Embassies Koror, Kolonia, and Majuro to Embassy Manila. (Action: EAP)

Recommendation 20: The Bureau of the Comptroller and Global Financial Services should
develop and communicate to Embassy Manila a plan to improve the performance of the new Pay
Intake system for American payroll issues. (Action: CGFS)

Recommendation 21: The Bureau of the Comptroller and Global Financial Services, in
coordination with Embassy Manila, should evaluate the cost-effectiveness of allowing the
embassy to process additional vouchers and authorize such action if feasible. (Action: CGFS, in
coordination with Embassy Manila)

Recommendation 22: Embassy Manila should establish a comprehensive, missionwide
training plan and allocate specific resources for training under the direction of the human
resources officer. (Action: Embassy Manila)

Recommendation 23: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Human Resources, should eliminate a general services officer position at Embassy
Manila. (Action: EAP, in coordination with DGHR)
                                       48
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 24: Embassy Manila should compete its simplified acquisitions according to
regulations. (Action: Embassy Manila)

Recommendation 25: Embassy Manila should require that passengers acknowledge their trips
in writing and that drivers complete the Daily Vehicle Use Record (Form OF-108). (Action:
Embassy Manila)

Recommendation 26: Embassy Manila should calculate rates for other authorized vehicle use
in accordance with Department of State regulations and on an annual basis. (Action: Embassy
Manila)

Recommendation 27: Embassy Manila should justify that its home-to-office shuttle program
is in the government’s best interest with a chief of mission written finding. (Action: Embassy
Manila)

Recommendation 28: Embassy Manila should include in its post arrival information details
about Philippine vehicle registration requirements. (Action: Embassy Manila)

Recommendation 29: Embassy Manila should establish procedures to require that the regional
security officer and post occupational safety and health officer approve properties before leases
are signed. (Action: Embassy Manila)

Recommendation 30: The Bureau of Overseas Buildings Operations, in coordination with
Embassy Manila, should install additional toilet facilities to meet general use standards and
provide relief for consular employees. (Action: OBO, in coordination with Embassy Manila)

Recommendation 31: The Bureau of Administration should prepare and distribute a plan to
restructure operations at Global Publishing Solutions Manila to eliminate working capital fund
operating losses. (Action: A)

Recommendation 32: Embassy Manila should develop information management office project
plans, post them on the office Web site, and update the Web site regularly to reflect current
priorities. (Action: Embassy Manila)

Recommendation 33: Embassy Manila should review its dedicated Internet network
operations and consolidate or close redundant networks where possible. (Action: Embassy
Manila)

Recommendation 34: Embassy Manila, in coordination with the Office of Medical Services
and the Bureau of Human Resources, should abolish U.S. direct-hire position number 59-
696000. (Action: Embassy Manila, in coordination with MED and DGHR)

Recommendation 35: Embassy Manila, in coordination with the Bureau of Overseas
Buildings Operations and the Office of Medical Services, should implement a plan to consolidate
the Manila medical unit and community liaison office at the chancery compound. (Action:
Embassy Manila, in coordination with OBO and MED)



                                       49
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 36: Embassy Manila should rewrite the position descriptions of the two
part-time community liaison office coordinators to include a wider range of responsibilities and
to facilitate the equitable distribution of work. (Action: Embassy Manila)

Recommendation 37: Embassy Manila, in coordination with the Bureau of Administration,
should revise the charter of the American Recreation Club to reflect current activities, including
charitable fundraising. (Action: Embassy Manila, in coordination with A)

Recommendation 38: Embassy Manila should request formal approval from the Office of the
Legal Adviser and the Bureau of East Asian and Pacific Affairs for the Ambassador to
participate personally in the U.S. Embassy Golf Club’s fundraising efforts. (Action: Embassy
Manila)

Recommendation 39: Embassy Manila, in coordination with the Bureau of Administration,
should place the U.S. Embassy Golf Club under the auspices of the chief of mission through a
memorandum of agreement with the American Recreation Club. (Action: Embassy Manila, in
coordination with A)

Recommendation 40: Embassy Manila should instruct its Class B cashier to segregate official
funds in the cashier’s accountability. (Action: Embassy Manila)

Recommendation 41: Embassy Manila should limit access to the cashier’s office to authorized
personnel only. (Action: Embassy Manila)

Recommendation 42: (b) (5)




Recommendation 43: (b) (5)



Recommendation 44: (b) (5)


Recommendation 45: (b) (5)




                                       50
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Manila should designate a biographic reporting
officer, outline a reporting plan, and arrange with the information management office to establish
an embassy shared drive for biographic reporting.

Informal Recommendation 2: Embassy Manila should revise local employee position
descriptions in the public affairs section as warranted.

Informal Recommendation 3: Embassy Manila should regularize the public affairs section’s
contact with U.S. military public affairs elements, including the public affairs officer assigned to
the Joint Special Operations Task Force-Philippines.

Informal Recommendation 4: Embassy Manila should analyze readership and media habits of
the target audience in Mindanao and decide whether to continue both the virtual presence post
and the blog.

Informal Recommendation 5: Embassy Manila should implement a plan for the Information
Resource Center to control workflow and sustain relationships with Filipino contacts and
organizations during the transition to full staffing.

Informal Recommendation 6: Embassy Manila should implement procedures requiring the
public affairs section to complete DS-4012 grants forms.

Informal Recommendation 7: Embassy Manila should stipulate in its grant agreements how
the U.S. Government will receive public credit, as appropriate.

Informal Recommendation 8: Embassy Manila should revise the rotation schedule in the
American citizens services unit for appropriate case management, continuity, and workload
distribution.

Informal Recommendation 9: Embassy Manila should hold a training session on the
confidentiality of visa information under section 222(f) of the Immigration and Nationality Act
to make all consular staff aware of its provisions and of the procedures for reporting a breach in
visa confidentiality.

Informal Recommendation 10: Embassy Manila should make the fraud prevention manager,
who is the accountable consular officer in the fraud prevention unit, responsible for the entire
genetic testing process.

Informal Recommendation 11: Embassy Manila should require the fraud program manager to
organize a training session for consular section employees with the assistant regional security
                                                 51
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

officers for investigations to clarify lines of responsibility and authority, and codify
responsibilities in a post-specific standard operating procedure.

Informal Recommendation 12: Embassy Manila should propose training for judicial entities in
the Philippines that are involved in (b) (5)

Informal Recommendation 13: Embassy Manila should limit hours for walk-in service to the
public at the U.S. consular agency in Cebu to 4 days a week to allow the consular agent and his
assistant adequate time for other duties.

Informal Recommendation 14: Embassy Manila should coordinate a comprehensive program
of administrative support to consular agency Cebu.

Informal Recommendation 15: Embassy Manila and the consular agent in Cebu should
develop a transition plan for the agent’s anticipated retirement so that his knowledge and
expertise are not lost.

Informal Recommendation 16: Embassy Manila should update the fees charged for rooms at
the Baguio residence and cottages.

Informal Recommendation 17: Embassy Manila should track the submission of work
requirements statements for eligible family members and handle delinquent cases accordingly.
(Action: Embassy Manila)

Informal Recommendation 18: Embassy Manila should document in writing its trafficking in
persons contract monitoring activities.

Informal Recommendation 19: Embassy Manila should request approval from the
International Cooperative Administrative Support Services council to reprogram a vacant local
employee position for the shipping and customs unit.

Informal Recommendation 20: Embassy Manila should post interagency housing board
minutes on its intranet site.

Informal Recommendation 21: Embassy Manila should refrain from closing short-term lease-
related work orders in the facility management work order system until the facilities office can
confirm that the landlords have completed the work.

Informal Recommendation 22: Embassy Manila should produce trip reports for all
information management office assistance visits to neighboring embassies.

Informal Recommendation 23: Embassy Manila should implement a help desk coordination
plan, complete with standard operating procedures, for managing all help desk service requests.

Informal Recommendation 24: Embassy Manila should develop a systematic training plan for
information management staff that includes rotation of local employees among different
information management subunits whenever possible.


                                        52
                            SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Informal Recommendation 25: Embassy Manila should include representatives from different
embassy sections on the local Information Technology Change Control Board.

Informal Recommendation 26: Embassy Manila should perform a cost-benefit analysis to
determine whether it is cost-effective to contract out both the medical laboratory and the
pharmacy.

Informal Recommendation 27: Embassy Manila should dispose of the medical unit’s x-ray
machine.

Informal Recommendation 28: Embassy Manila should reduce the number of subcashiers and
the levels of their advances.

Informal Recommendation 29: Embassy Manila should review consular management controls
practices and provide regular training for all accountable consular officers.

Informal Recommendation 30: (b) (5)




                                      53
                          SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                      Name       Arrival Date
Ambassador                                               Harry K. Thomas Jr.            04/10
Deputy Chief of Mission                                   Brian L. Goldbeck        ETA 08/12
Chiefs of Sections:
  Management                                                  Robert A. Riley          11/09
  Consular                                              Michael R. Schimmel            10/10
  Economic                                                   Joel Ehrendreich          07/12
  Engineering Service Center                                   David B. Noble          07/12
  Public Affairs                                              Robin D. Diallo          08/11
  Political                                                 Joy O. Yamamoto            08/10
  Global Publishing Solutions                       David J. Ekeroth (Deputy)          06/12
  Regional Security                                       Keith A. Swinehart           09/11
  Regional Information Management Center                      Gabriel F. Cudal         09/09
  Overseas Buildings Operations                              Wendy Simonson            05/09

Other Agencies:
  American Battle Monument Commission                       Larry A. Adkison           03/00
  Broadcasting Board of Governors / International
  Broadcasting Bureau                                        David Strawman            02/09
  Drug Enforcement Administration                             Robert M. Cash           05/09
  U.S. Citizenship and Immigration Services                     David V. Roy           02/10
  Homeland Security Investigations                         Mevedinia Romero            07/12
  Department of Justice                                     Donald D. Ashley           07/12
  Joint U.S. Military Assistance Group                  Col. Rocky L. Carter           05/12
  Defense Attaché Office                              Col. Richard W. Matton           01/11
  Foreign Agricultural Service                                 Philip A. Shull         07/10
  Animal and Plant Health Inspection Service                  Kelan R. Evans           07/11
  Foreign Commercial Service                                 James McCarthy            07/12
  Asian Development Bank                                       Joel N. Fischl          10/09
  Legal Attaché Office                                     Gibson M. Wilson            05/12
  Millennium Challenge Corporation                          Matthew L. Bohn            09/10
  Naval Criminal Investigation Service                      Johnnie C. Green           10/10
  Peace Corps                                               Denny Robertson            07/11
  Social Security Administration                            Darrin K. Morgan           09/07
  Transport Security Administration                         Anthony M. Mira            06/10
  U.S. Agency for International                                                        07/10
  Development                                                Gloria D. Steele
  U.S. Department of Veterans Affairs                       Nicolas Pamperin           12/10
  U.S. Department of Treasury/Office of
  Technical Assistance                                   Donna K. Blackburn            06/12




                                     54
                         SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
ARC              American Recreation Club

ARSO-I           Assistant regional security officer-investigator

Department       U.S. Department of State

DOD              Department of Defense

EEO              Equal Employment Opportunity

FAH              Foreign Affairs Handbook

FAM              Foreign Affairs Manual

GPS              Global Publishing Solutions

ICASS            International Cooperative Administrative Support Services

IM               Information management

J/TIP            Office to Monitor and Combat Trafficking in Persons

JSOTF-P          U.S. Joint Special Forces Operations Task Force-Philippines

LE               Locally employed (staff)

PAS              Public affairs section

USAID            U.S. Agency for International Development

VA               U.S. Department of Veterans Affairs




                            55
                SENSITIVE BUT UNCLASSIFIED
SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

          CONTACT THE
  OFFICE OF INSPECTOR GENERAL
             HOTLINE
       TO REPORT ILLEGAL
    OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




SENSITIVE BUT UNCLASSIFIED
